<html>
<title> - COMPLEMENTARY AND ALTERNATIVE MEDICINE IN GOVERNMENT-FUNDED HEALTH PROGRAMS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
  COMPLEMENTARY AND ALTERNATIVE MEDICINE IN GOVERNMENT-FUNDED HEALTH 
                                PROGRAMS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 1999

                               __________

                            Serial No. 106-4

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
56-145 CC                   WASHINGTON : 1999





                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                GARY A. CONDIT, California
THOMAS M. DAVIS, Virginia            PATSY T. MINK, Hawaii
DAVID M. McINTOSH, Indiana           CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELEANOR HOLMES NORTON, Washington, 
JOE SCARBOROUGH, Florida                 DC
STEVEN C. LaTOURETTE, Ohio           CHAKA FATTAH, Pennsylvania
MARSHALL ``MARK'' SANFORD, South     ELIJAH E. CUMMINGS, Maryland
    Carolina                         DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
ASA HUTCHINSON, Arkansas             JOHN F. TIERNEY, Massachusetts
LEE TERRY, Nebraska                  JIM TURNER, Texas
JUDY BIGGERT, Illinois               THOMAS H. ALLEN, Maine
GREG WALDEN, Oregon                  HAROLD E. FORD, Jr., Tennessee
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 24, 1999................................     1
Statement of:
    Berman, Brian, M.D., associate professor and director, 
      Program for Complementary Medicine, University of Maryland 
      School of Medicine, Baltimore, MD; and Ollie and Barbara 
      Johnson, Dean Ornish Lifestyle patient and spouse, 
      Columbia, SC...............................................    71
    Kamerow, Douglas, M.D., Director, Center for Health Care 
      Technology, Agency for Health Care Policy Research, 
      Department of Health and Human Services; Thomas V. Holohan, 
      M.D., Chief, Patient Care Services Officer, Veterans Health 
      Administration; John F. Mazzuchi, Deputy Assistant 
      Secretary of Defense for Health Affairs, Clinical and 
      Program Policy, Department of Defense; and Jim Zimble, 
      M.D., president of the Uniformed Services University for 
      the Health Sciences........................................    98
    Ornish, Dean, M.D., president and director, Preventive 
      Medicine Research Institute, and clinical professor of 
      medicine, University of California, San Francisco, CA......    46
    Seymour, Jane, actress.......................................    26
Letters, statements, etc., submitted for the record by:
    Berman, Brian, M.D., associate professor and director, 
      Program for Complementary Medicine, University of Maryland 
      School of Medicine, Baltimore, MD, prepared statement of...    75
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Illinois:
        Information concerning saw palmetto......................   143
        Letter dated March 1, 1999...............................   140
        Prepared statement of....................................     6
    Holohan, Thomas V., M.D., Chief, Patient Care Services 
      Officer, Veterans Health Administration, prepared statement 
      of.........................................................   125
    Johnson, Barbara, Dean Ornish Lifestyle spouse, Columbia, SC, 
      prepared statement of......................................    83
    Johnson, Ollie, Dean Ornish Lifestyle patient, Columbia, SC, 
      prepared statement of......................................    89
    Kamerow, Douglas, M.D., Director, Center for Health Care 
      Technology, Agency for Health Care Policy Research, 
      Department of Health and Human Services, prepared statement 
      of.........................................................   101
    Mazzuchi, John F., Deputy Assistant Secretary of Defense for 
      Health Affairs, Clinical and Program Policy, Department of 
      Defense; and Jim Zimble, M.D., president of the Uniformed 
      Services University for the Health Sciences:
        Information concerning FY 98 breast cancer research 
          program................................................   138
        Prepared statement of....................................   111
    Ornish, Dean, M.D., president and director, Preventive 
      Medicine Research Institute, and clinical professor of 
      medicine, University of California, San Francisco, CA, 
      prepared statement of......................................    54
    Sanders, Hon. Bernard, a Representative in Congress from the 
      State of Vermont, prepared statement of....................    23
    Scarborough, Hon. Joe, a Representative in Congress from the 
      State of Florida, prepared statement of....................    15
    Seymour, Jane, actress, prepared statement of................    29


  COMPLEMENTARY AND ALTERNATIVE MEDICINE IN GOVERNMENT-FUNDED HEALTH 
                                PROGRAMS

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:18 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Morella, Davis, 
Sanford, Hutchinson, Biggert, Chenoweth, Waxman, Maloney, 
Norton, Kucinich, and Blagojevich.
    Staff present: Kevin Binger, staff director; Daniel R. 
Moll, deputy staff director; Beth Clay, professional staff 
member; David Kass, deputy counsel and parliamentarian; John 
Williams, deputy press secretary; Carla J. Martin, chief clerk; 
Lisa Smith Arafune, deputy chief clerk; Jackie Moran, 
legislative aide; Phil Schiliro, minority staff director; Phil 
Barnett, minority chief counsel; Kristin Amerling, Jon Bouker, 
and Sarah Despres, minority counsels; Karen Lightfoot, minority 
professional staff member; Ellen Rayner, minority chief clerk; 
Courtney Cook and Earley Green, minority staff assistants; and 
Barbara Wentworth, minority research assistant.
    Mr. Burton. The committee will come to order.
    We have a Republican conference going on at this time and 
we'll probably have Members coming in and out. I was going to 
wait on them, but because we have a number of witnesses that 
have time constraints, I thought we would go ahead and get 
started.
    A quorum being present, the committee will be called to 
order. I ask unanimous consent that all Members and witnesses 
written opening statements be included in the record and 
without objection, so ordered.
    Today, we continue our inquiry into American's access to 
complementary and alternative medicine. Alternative medicine 
continues to increase in popularity and use in the United 
States. A 1997 survey in the Journal of the American Medical 
Association revealed that over 42 percent of Americans used at 
least 1 of 16 alternative therapies during the previous year.
    Last year, we looked primarily at the research area. We 
focused on the ability of seriously ill patients to get access 
to FDA-approved clinical trials in alternative medicine. This 
may be a relatively small percentage of the overall population, 
but it is one that is desperately in need of our help.
    There are millions of Americans who are suffering from 
terminal or crippling diseases. For many of them, conventional 
treatments like chemotherapy do not work, or may be fatal 
themselves. For these people, alternative drugs and therapies 
are the only ray of hope that they have. I believe in my heart 
that we have an obligation to those people to invest the money 
that's needed into research and clinical trials to find out 
which treatments work and which ones do not. I believe that if 
someone is seriously ill and wants to try an experimental drug 
that safety has been established, the Federal Government has no 
business in blocking them. After all, it's their life.
    I have a special interest in this area because of how my 
own family has been affected in just the last few years by 
cancer. Last September and October, I lost both my mother and 
my father to lung cancer. My wife struggled through breast 
cancer 5 years ago, and thanks to an experimental alternative 
cancer treatment, she has been in remission for 5 years. One of 
the things that has really troubled me over the past 5 years is 
this experimental program which has been so effective in 
helping my wife. The Food and Drug Administration, because of 
technicalities, tried to close the program down. I had about 70 
women calling me who were crying on the phone and very upset 
because the last ray of hope they had was Dr. Springer's 
alternative therapy which stimulated the immune system. We had 
to literally have a real hard talk with the Food and Drug 
Administration because they were not going to relent.
    Fortunately, they did review the situation, the problem was 
solved and the program has been ongoing. So those 70-some women 
who are in this experimental program are still happy and they 
are doing well, but it is unfortunate that you have to fight 
for a program like that when so many lives depend on it.
    I'd be willing to bet that every member of this committee 
has lost a family member to cancer, heart disease, or some 
other serious illness. There is not anyone in this room whose 
family has not been touched by cancer, heart disease or some 
other devastating disease.
    Last year, we began looking at the level of funding for 
alternative medicine cancer research through the National 
Institutes of Health. We learned that less than $20 million of 
the $2.7 billion that is the budget for the National Cancer 
Institute, was devoted to research in alternative medicine. 
This is less than 1 percent of their total budget, and I think 
that's deplorable.
    This year, we are expanding our investigation to include 
patient access to alternative medicine through Government-
funded health programs. Between 25 and 40 percent of Americans 
receive at least part of their health care through federally 
funded programs. This includes our active-duty military, 
veterans, and their families. It also includes Americans who 
receive medical care through Medicare, Medicaid, public health 
clinics, and Indian Health Services.
    Are research results translating into access to alternative 
treatments by the average American? Well, the Health Care 
Financing Administration estimates that national health care 
expenditures for the United States will double by the year 2007 
to exceed $2.13 trillion. Almost $1 trillion of those estimated 
dollars will be public funds. It is imperative that the 
Government reduce these healthcare costs while working to 
improve the health and well being of the American people, and 
that's where alternative therapy comes in.
    With the epidemic-level increases of chronic conditions 
such as heart disease, obesity, diabetes, arthritis, asthma, 
and depression, as well as the high percentages of cancers such 
as lung cancer, breast cancer, prostate cancer, colon cancer, 
and melanoma, we have to be aggressive and open-minded in 
looking for additional options in medical care. We have to find 
effective and efficient ways to treat chronic and debilitating 
illnesses. We have to find better ways to treat pain. We have 
to find ways to reduce the use of antibiotics. We just read the 
last week that many strains of viruses are becoming resistant 
to antibiotics, and so there has to be alternatives looked at 
very, very thoroughly. We have to find better ways to treat 
pain. We also need to better care for the terminally ill. We 
need to integrate the wisdom of the ages with the knowledge of 
this century and move forward into the next millennium 
expediently.
    I remember when I was a State legislator, I had about 300 
or 400 cancer patients who had been adjudged terminally ill 
come down to the Indiana State Legislature when we were 
debating an issue called Laetrile, and I know that's a very 
controversial issue. But many of those people had been helped 
because they had used alternative therapies and many had used 
Laetrile with some success. And the thing that frustrated me 
the most was the whole determination of those who opposed 
Laetrile as well as any alternative therapy. And the way they 
just ignored these people who were terminally ill, and it 
seemed to me at the time and it seems to me today that if 
somebody is adjudged terminally ill, they ought to be able to 
do anything they wish to try to save their life. After all, 
hope is one of the major ingredients in keeping people going. 
And when you take away that hope and just say go home and die, 
that's just what they are going to do.
    Since a substantial portion of our population receives 
their healthcare through these agencies, it's important to look 
at the level of integration of complementary and alternative 
medicine in these programs. We've heard the cry here in this 
chamber of ``Show me the science'' in hearings of this 
committee as the mantra of why alternative medicine should not 
be used. Caution is important. Good scientific data is 
important, and thousand of years of safe and effective use of 
alternatives are also important.
    We will hear today from two esteemed physician researchers. 
Both Dr. Ornish and Dr. Berman have conducted clinical trials 
in alternative medicine. Each hold teaching positions at highly 
respected U.S. medical schools. Each has published in peer-
reviewed journals. Each has extensive experience and expertise 
in their fields, and we'll hear that there is good scientific 
research in alternative medicine and an ever-increasing amount 
of that reported in peer-reviewed medical journals.
    We'll also hear from the Department of Health and Human 
Services, the Federal Government's principal agency for 
protecting the health of all Americans. The Department of 
Health and Human Services is responsible for providing 
essential human services, especially for those who are least 
able to help themselves. Among these services is the Medicare 
program, the Nation's largest health insurer. Many of these 
services are provided at the local level by State or county 
agencies or through the private sector grantees.
    For many Americans, especially those on Medicare and 
Medicaid, the denial of coverage is a restriction of access and 
in some cases, ultimately is a death sentence. The Department 
of Veterans Affairs provides benefits and services to the 
country's veterans. This is a population of over 25 million. 
They also provide care for approximately 44 million family 
members. Given the increased demand by patients to have access 
to alternative therapies, in April 1998, the Veterans 
Administration initiated a survey to determine the level of 
alternative medicine availability and to assess what, if any, 
alternative therapies should be offered with the Department. 
That report was due out in December 1998 and it has still not 
been released and we're going to find out why.
    The Department of Defense provides health care to its 
active-duty service members and active-duty dependants, 
retirees and their dependants, and survivors of deceased 
members and former spouses. There's an increasing number of 
healthcare providers within the Defense Department that have 
specialized training in complementary and alternative 
therapies.
    Today, we have one of the foremost actresses, Jane Seymour, 
with us and she will present testimony regarding her 
experiences in integrating natural healing approaches into her 
life. Ms. Seymour has had numerous experiences with alternative 
medicines that have helped her family. She will talk about her 
father's cancer experience and her experiences of integrating 
herbs, homeopathy, and other complementary methods with 
conventional medicines.
    Dr. Brian Berman is the Director of the NIH-funded 
Complementary Medicine Program at the University of Maryland in 
Baltimore. Dr. Berman has been a long-time advisor to the 
Federal Government on alternative medicine and he has conducted 
clinical research in acupuncture, mind-body and relaxation 
techniques, and coordinates the complementary medicine field 
group of the Cochrane Collaboration.
    We are in a time of change in this country. Healthcare is 
important to all of us. How can we, as a Government, provide 
quality and effective care and not increase costs to the point 
of crippling our system? Complementary and alternative medicine 
may be a large part of the answer. As I have said before, we've 
heard the mantra ``Show me the science'' and we are moving to 
do that today. We will show that there is already scientific 
data to validate the effectiveness of several complementary and 
alternative therapies. We have moved to a point of looking at 
broader availability to our armed-services families and their 
veterans, and to those who rely on the Federal Government for 
part or all of their health care. It is time that we assume and 
assure that scientifically validated healthcare moves out of 
the ivory towers of research community and into the lives of 
the American people.
    We look forward to hearing from today's witnesses. There 
has been a great desire by many patients, healthcare providers, 
associations, and researchers to speak to the committee on this 
topic. And we're not able to bring them all in today, but we 
will hold the record open until March 10 to allow for written 
submissions to be included in the record. And I want to thank 
all of our guests for being here today. I really appreciate it. 
I know it takes a lot of time out of your busy schedule and we 
really, really appreciate that.
    I'll now turn to Mr. Waxman, our ranking minority member, 
who just arrived for an opening statement.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED]56145.001
    
    [GRAPHIC] [TIFF OMITTED]56145.002
    
    [GRAPHIC] [TIFF OMITTED]56145.003
    
    [GRAPHIC] [TIFF OMITTED]56145.004
    
    [GRAPHIC] [TIFF OMITTED]56145.005
    
    [GRAPHIC] [TIFF OMITTED]56145.006
    
    Mr. Waxman. Thank you very much, Mr. Chairman.
    There is no denying the growing popularity of alternative 
medicines. They constitute a rising proportion of our 
healthcare expenditures. The number and diversity of 
alternative products and services in the healthcare marketplace 
are increasing dramatically.
    Today's hearing is focused on the right questions about 
alternative medicines. It is important that we seek information 
about therapies that can help improve our well being and to 
encourage access to safe and effective treatments. At the same 
time, we must promote thorough testing and review of therapies 
to prevent unnecessary harm and expense to consumers.
    I believe that a quote from a recent editorial in the 
Journal of the American Medical Association provides the 
appropriate framework for today's discussion. The Journal of 
the American Medical Association recently wrote ``there is no 
alternative medicine. There is only scientifically proven 
evidence-based medicine supported by solid data or unproven 
medicine for which scientific evidence is lacking.'' This is 
the test to which we must hold alternative medicine. Medicine 
of any kind must undergo the crucible of scientific 
investigation from clinical trials to publications in reputable 
peer-reviewed journals before it can gain a place in routine 
practice. We must place our trust in credible evidence and not 
mere speculation, or tradition, or popularity when we decide 
how best to care for the sick.
    The Federal Government and others have invested millions 
into research on alternative medicines. Some research has had 
promising results. For example, the Journal of the American 
Medical Association recently reported on a preliminary study 
indicating that yoga stretching can relieve some symptoms of 
carpal tunnel syndrome.
    On the other hand, other therapies have proven ineffective 
or dangerous. For example in 1997, the deaths of three cancer 
patients were linked to a Manassas physician who had been 
treating them by injecting them with concentrated aloe vera, a 
treatment that is not approved by the Food and Drug 
Administration. Patients reportedly had learned about this 
physician's treatment through the internet, word of mouth, or 
an aloe vera supplier.
    In highlighting ongoing research, examples of 
scientifically validated forms of alternative medicine and 
positive personal experiences with alternative treatments, 
today's witnesses will help sift through the positive and the 
negative aspects of this area of medicine.
    I join my colleagues in welcoming the witnesses here today 
and I just want to comment on the fact that we have a change of 
the list of witnesses and their order which we were never 
advised of until the very last minute. Not only were we not 
advised, but the Government witnesses--and it would have been 
helpful for them to know when they were to appear--were 
suddenly put on a third panel. And, I think for the record, I 
want to point out that we ought to be courteous to all of the 
witnesses try to accommodate them and also discuss with our 
colleagues, if we are going to have collegial hearings, how 
we're trying to treat the witnesses so we can get the 
opportunity to hear from them and not have them mistreated by 
having the schedules changed on them.
    Thank you very much, Mr. Chairman. I do appreciate the 
hearing. I think the hearing is a worthwhile one and I will try 
to be here as much as possible, but I certainly will review the 
record for those witnesses where I am not present in the room 
because of conflict of schedule.
    Mr. Burton. Thank you, Mr. Waxman.
    Let me just say that wherever possible, we always have our 
agency and administration officials testify first. We do have 
some time constraints which are a little unusual today. So, for 
that reason we've changed our panel structure around a little 
bit. So if that inconvenienced you, we apologize for that.
    Mr. Hutchinson, do you have anything you would like to say?
    Mr. Hutchinson. Thank you, Mr. Chairman.
    I'm just delighted to participate in this hearing. I thank 
you for conducting this and I look forward to the testimony. 
And so in the interest of hearing the testimony, I yield back 
the balance of my time.
    Mr. Burton. Are you saying the chairman talked too long? Is 
that what you're saying? [Laughter.]
    Mr. Hutchinson. I would never say that, Mr. Chairman.
    Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman, Mr. 
Waxman, fellow committee members, and members of the panel. I 
appreciate the opportunity to participate in this hearing on 
complementary and alternative medicine. I applaud the 
chairman's willingness to address this issue and I thank him 
for providing us with this forum.
    As a witness to the theories and practice of alternative 
medicine, I support the committee's efforts concerning this 
issue. With this in mind I look forward to exploring 
opportunities that will advance medical care and expand the 
treatment options afforded to today's doctors.
    I think that all of us in Congress are fully aware that our 
healthcare system is on the verge of radical change. The 
direction that we are going remains to be seen, but with rising 
costs, with more and more Americans not having access to 
adequate healthcare, and with more and more Americans 
questioning whether they have any availability to healthcare, I 
think there is becoming a greater and greater interest in 
alternative methods.
    This, in no way, is an attempt to denigrate allopathic 
practice because I think that, at a minimum, many allopathic 
practitioners would agree that alternative healthcare methods 
and therapies are a proper adjunctive theory. I have great 
respect for allopathic practice, but at the same time, I think 
that you will find that allopathic practitioners who are candid 
will admit that there are limitations to their own practice.
    I think that we are fully aware that the United States 
enjoys some of the most advanced health care in the world, but 
yet we are unable to provide relief for a number of common 
ailments. The current standards of practice occasionally fail 
to recognize that medicine is an ancient art that encompasses 
all methods of healing. Somewhere along the road to advance 
medicine we sometimes forget that there are methods of treating 
those who need help. It's time to help widen the vision of 
modern medical doctrine and explore alternative medicine. We 
have to let go of the fear that alternative medical practices 
will replace and endanger standards and instead embrace the 
idea that any method that is proven a safe form of treatment 
ought to be available to the people.
    American citizens have a right to health care and as 
Members of Congress, we have a duty to ensure that they have 
every available proven treatment option. Complementary and 
alternative medical care encompasses numerous forms of studies 
and tested procedures and practices and it is gaining support 
from mainstream medicine. Unfortunately, there is some 
unwillingness to support its practice and research. We must 
ensure nonprejudicial disbursement of research funds to all 
disciplines of medicine, including alternative medicine. We 
must utilize this research not only to educate practitioners 
and the public, but to provide them with access to proven 
methods of alternative medicine.
    I hope these hearings will broaden our understanding of 
alternative medicine; will expose and end any bias that may 
exist within our current system of medical doctrine. All 
citizens deserve access to safe and proven methods of medical 
care and I thank the chairman and the panel for expanding our 
understanding of medicine that some would deem, unfortunately, 
the alternative.
    Finally, Mr. Chairman, these hearings present a wonderful 
opportunity. We have to think creatively about healthcare; to 
think dynamically; to draw new worlds toward us using a higher 
consciousness of the potential we have within us to make this a 
better world. I think that we need to urge Government officials 
to keep an open mind on alternative therapies. Anyone who is 
watching or listening knows that once an individual has 
experienced a profound shift in his or her health as the result 
of a new approach toward health care, it is important that the 
story of the miracle of an individual's transformation be 
available to study, certainly, and also to share.
    So, I welcome Ms. Seymour and the other witnesses and I 
thank you for participating in these hearings.
    Thank you.
    [The prepared statements of Hon. Joe Scarborough and Hon. 
Bernard Sanders follow:]

[GRAPHIC] [TIFF OMITTED]56145.007

[GRAPHIC] [TIFF OMITTED]56145.008

[GRAPHIC] [TIFF OMITTED]56145.009

[GRAPHIC] [TIFF OMITTED]56145.010

[GRAPHIC] [TIFF OMITTED]56145.011

[GRAPHIC] [TIFF OMITTED]56145.012

[GRAPHIC] [TIFF OMITTED]56145.013

[GRAPHIC] [TIFF OMITTED]56145.014

[GRAPHIC] [TIFF OMITTED]56145.015

[GRAPHIC] [TIFF OMITTED]56145.016

[GRAPHIC] [TIFF OMITTED]56145.017

    Mr. Burton. Thank you, Mr. Kucinich.
    Well, we now finally are at the stage where we hear from 
our witnesses and the first witness, Ms. Seymour, would you 
come forward and sit in this chair right here in the middle, 
and if you would like to have anybody with you, that's fine.
    First of all, before you start your statement, let me just 
say how much we appreciate you being here. I especially 
appreciate you being here because I am one of your biggest 
fans. I watched you in East of Eden and I thought you did 
extremely well in that, and I saw you in ``Somewhere in Time,'' 
which is a very romantic movie. I saw your picture on the wall 
in that movie theatre and just swooned. So I just want you to 
know you have a big fan here in the chairman and----
    Ms. Seymour. Thank you.
    Mr. Burton [continuing]. Although we usually limit 
testimony to 5 minutes, you can have all the time you want.
    Ms. Seymour.

               STATEMENT OF JANE SEYMOUR, ACTRESS

    Ms. Seymour. Thank you very much, Chairman Burton, and 
thank you all for giving me this opportunity. This is, 
obviously, very unusual for me and something I am very excited 
to be a part of.
    My first experience with alternative medicine involved my 
father, Mr. John Frankenberg, a fellow of the Royal College of 
Obstetricians and Gynecologists in England. He specialized in 
infertility and prided himself in being a good doctor, with 
extraordinary results in his field, greatly due to the time he 
would spend listening to his patients. When he himself was 
diagnosed with lung and bone cancer and treated with radiation, 
his oncologist told him that that was it. He had no more 
options.
    Distressed and desperate to find an answer, I found the 
Virginia Livingston Clinic in San Diego, a complementary 
medicine program which was heavily criticized by mainstream 
medicine. I offered this option to my father not believing that 
he would accept. However, after reading their brochure he did.
    On his arrival in California, he was frail, gray, and 
lifeless. Not the man I had always known, but rather a man who 
appeared nearly dead, both physically as well as spiritually. 
After only 1 week there undergoing complementary medicine 
therapies and antibiotics, he regained his strength and his 
spirit. He decided to visit Sea World. He walked out of this 
wheelchair to look more closely at the exhibit. He was healthy 
looking and happy and we were all, including his oncologist, 
dumbfounded.
    Many months later, he died of complications including heart 
problems, but he had a much longer life than predicted and, 
without question, a higher quality of life. He visited the 
opera 2 days before his death. He was happy and comfortable 
until the end. Before he died, I spoke with him asking if he 
had any regrets in his life. And he said that his strongest 
regret was his not knowing more about alternative medicine as 
he felt he could have been a better doctor with that knowledge 
to complement his own.
    Since then, my sister Anne, who is with me today, has 
trained as a homeopath in England. I have seen her help many 
people. One was a woman with fibroid tumors declared unable to 
conceive and told she needed surgery. Anne treated her 
homeopathically, and she has just delivered a healthy child and 
the doctors found no fibroids present in her body. When 
alternative medicine finally arrives, how many surgeries like 
this will be prevented?
    My nephew with chronic Eczema has found relief at last with 
homeopathy instead of steroids. My sister, Sally, had a brain 
aneurysm and after surgery was given Arnica for the swelling 
with the permission of her brain surgeon who admitted he didn't 
really understand what Arnica was. He was then astounded, as 
were all the nurses, who determined her swelling to be one-
tenth that of the other patients who had received the identical 
surgery that day.
    In my own life, I've used high-quality herbs, vitamins, and 
homeopathy. During my 16-hour a day, 5 day-a-week job on Dr. 
Quinn, I rarely got sick. Indeed, even pregnant with twins at 
45, I was able to support my immune system with this regime and 
not miss a single day of work.
    I have recommended remedies to friends for headaches and 
flu symptoms with amazing success, even to the non-believers. 
My children, both teens and babies, routinely use alternative 
medicine first. More often than not, it has solved their 
problems. My pediatrician suggested homeopathy to avoid the 
excessive use of antibiotics. One of my twins did so well with 
this that he was antibiotic-free for over 6 months when all 
around him were suffering from the flu.
    Recently, both twins with ear infections received 
antibiotics due to the severity of the case, but also took a 
series of other therapies like herbal medicine to support their 
immune systems. They sailed through this as if they were never 
sick and needed far less antibiotics rounds. It was amazing.
    Another friend with chronic migraines would vomit 
uncontrollably and lie in a fetal position crying for help. 
Medicine prescribed for her did little. Only Codeine gave her 
some pain relief and sleep. The following day, she consulted a 
naturopathic medicine practitioner who after the session gave 
her a single remedy. She felt better within a half an hour and 
has remained pain and headache free ever since.
    About 9 years ago, I almost died of anaphalatic shock from 
an injection of Cephliosporin prescribed for bronchitis. 
Needless to say since that close call, I've been more inclined 
to ask questions and seek options in my medical health. Do we 
all need a severe wake-up call? I have managed to avoid 
antibiotics on many occasions by catching early warning 
symptoms of viral infections using proven herbs such as 
echinacea, vitamins, and homeopathy.
    Two years ago, I was very ill with Leptospirosis, a 
bacterial infection contracted while filming in a swamp. I was 
eternally grateful to have Tetracycline, which absolutely saved 
my life. I am also positive that by my abstaining in the past 
from antibiotics whenever possible and using complementary 
medicines, the antibiotic worked more effectively in that 
crisis.
    The world of alternative medicine has become a major spark 
in my life and I am here to suggest the integration of western 
and alternative medicine within our medical establishments. It 
would be an injustice to deny America the information about and 
access to alternative medicine, particularly as it has now been 
proven through laboratory and clinical research and has shown 
to be cost effective with 100 to 500 years of reproducible 
clinical results.
    I am not standing here as a scientist, but as a concerned 
member of the public who has had the privilege to try these 
options which are supported by scientific evidence.
    A recent article in JAMA estimated that there were 110,000 
deaths annually from the use of medical drugs. It is the fourth 
cause of death in America. That is not to say that miracles 
have not been achieved with the use of prescription drugs, and 
I am not here to vilify western medicine. I am looking for 
inclusion, not exclusion. I propose every hospital in America 
include a complementary medicine department consisting of two 
or three licensed practitioners who direct the complement to 
unassisted treatments such as chemotherapy side effects and 
chronic, but not life-threatening, diseases. I propose the NIH 
stop withholding its billions of dollars in research funds from 
the implementation of natural medicines and protocols.
    When I get sick, my children, or my friends, I want to know 
that ``all'' has been done to protect their health. Everything! 
I don't want to feel that I have to choose one medical system 
over the other. Each of us can benefit from a portfolio of 
medical choices and I want all the medical options available to 
me, to my family, and to you. There must be room for all 
remedies that bring health to the patient. Isn't this hearing 
about healing? Alternative no longer needs to mean one or the 
other. There should be no alternative other than the best 
health care known to man.
    Thank you.
    [The prepared statement of Ms. Seymour follows:]

    [GRAPHIC] [TIFF OMITTED]56145.018
    
    [GRAPHIC] [TIFF OMITTED]56145.019
    
    [GRAPHIC] [TIFF OMITTED]56145.020
    
    Mr. Burton. Thank you very much, Ms. Seymour. That was a 
very, very enlightening statement. We are going to ask you some 
questions now.
    Ms. Seymour. OK.
    Mr. Burton. You didn't think you were going to get off 
scott free, did you? [Laughter.]
    I'd like to know a little bit more about your father's 
situation. Do you know what kind of therapy they provided for 
him when he became deathly ill with cancer and they gave up 
hope?
    Ms. Seymour. I have the data here somewhere that I can show 
you. He had a number of therapies, but the main ones were 
intravenous vitamin C, which many people have poo-pooed, which 
I now believe is done all over the country. And a special 
vaccine made that was also at that time not allowed. In fact, 
he was very fortunate to get it. I believe the vaccine is now 
being used elsewhere in the country routinely for cancer. He 
also had an enormous amount of emotional counselling, which I 
think was a very large factor, too.
    In his case, of course, the cancer was not caught early 
enough for him to go into remission. However, I think the point 
I am trying to make here is that he was given the quality of 
life, a comfort, and a sense of living until the end which I 
think that every one who goes through cancer should be entitled 
to, and especially if that exists.
    And I think one of the reasons I am here today is because 
he was an eminent surgeon who did not necessarily believe or 
know anything about alternative medicine before. The fact that 
his only regret in life was that he didn't get to know more 
about these options until just before he died is really one of 
the reasons I am here today. I meet an enormous number of 
medical practitioners who really believe that there are holes 
in what they are doing and that there really is a great need 
for alternative medicine as a complement to what they are 
doing, particularly as you mentioned, in cancer.
    I have three friends who just went through breast cancer. 
All three of whom were told at one point by their oncologist 
that their white blood cells were at a level that they, 
basically, were going to die. There was nothing more that could 
be done for them. And they all said, ``well, what do you mean? 
What do we do now?'' And their oncologists said, ``well, there 
is nothing we can do now. We are finished. This is it. We've 
done our best. That's all we can do.'' And my friends said 
``well, are we supposed to walk out of door and die?'' And 
their oncologists said, ``well, we don't like to put it that 
way, but there is nothing more that we actually can do.''
    In all three cases, they found alternative medicine and, in 
fact in all three cases, it was Chinese herbal medicine that 
brought back their immune system. All three of them are 
incredibly healthy. All in remission and all of them would 
swear by alternative medicine, and that is another reason I am 
here.
    Mr. Burton. Those are very impressive stories and it is not 
unlike the situation that my wife went through 5 years ago. 
They gave her less than a 50-percent chance to live 5 years and 
she just celebrated her 5th year and she is very healthy.
    So, I'd like to make just one more comment along the lines 
of your father. He was a doctor and he was not enthralled with 
alternative therapies until he became ill. For those who are 
from HHS and FDA, I hope you listen to this story.
    We had a Governor in Indiana who was deaf on alternative 
therapies and he supported the AMA's position right down the 
line. And I fought with him when I was a legislator and he was 
Governor over some of these alternative therapies. His wife 
became ill with cancer and he went and used every alternative 
therapy he could possibly use to save her life and I do not 
fault him for that. The only thing that bothered me was that 
that is the way it ought to be for everybody. And he later 
became the head of HHS, incidentally.
    You mentioned in your testimony that you use alternative 
treatments in your children. How do you decide what is safe for 
your children?
    Ms. Seymour. My pediatrician is actually the person who 
started me out on this. She is a regular M.D. She does not 
practice any alternative medicine. Her name is Dr. Lisa Stern, 
a prominent pediatrician in Los Angeles. She said to me that 
the use of antibiotics for small children was not safe to do on 
a regular basis. That they were trying to find other options 
and she suggested that I consult a homeopath. I consulted Dr. 
Asa Hershoff in Los Angeles with my twins and we've been using 
homeopathic and herbal remedies for them really pretty much 
since they were born. We use, obviously, things like chamomile 
for teething; Arnica for bumps and bruises; pulsatile for flu. 
They really are incredibly healthy considering both of them 
were on heart monitors. Both of them were born early; 6 weeks 
early and being twins, you know, they are not as resistant 
usually as other children to infections that are around them 
because they had low birth weights.
    I generally will go to the pediatrician first and then I 
will take them to the homeopath and we'd look at what the 
options are and, invariably, we'd try homeopathy for at least a 
couple of days. Usually it works and, therefore, we don't end 
up having to use the antibiotics.
    Mr. Burton. Let me just ask one more question here. What 
would you say right now to mothers all across America about the 
use of antibiotics? You just talked about that. I presume you 
would just tell them to be very careful; not to use them unless 
it is absolutely necessary. I mean, how do you judge that and 
what would you say to them?
    Ms. Seymour. I think you go to your regular medical 
practitioner and I personally believe you also have a homeopath 
or someone like that, a naturopathic doctor that you can 
consult. As a mother--for me, I would check their ears and make 
sure there is no major ear infections or problems that way. And 
most pediatricians will now agree and say that antibiotics 
should be used very sparingly in small children and they are 
very happy to have alternative means to try first.
    Mr. Burton. Thank you. Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman, and Ms. 
Seymour. We are delighted to have you here and I appreciate 
your testimony.
    I think the important point that I get from what you had to 
say is that we don't want one medicine here and another 
medicine there. We want the best healthcare possible for all of 
our people. And that means that everybody has to be open-minded 
enough to reevaluate information, and if new information comes 
out, we ought to accept it. I gather your father had a feeling 
that as a medical person, he wasn't open to some of these 
alternatives because he had been trained in a particular way 
and didn't think about some of these other things that were 
being suggested.
    Is that a correct statement?
    Ms. Seymour. Yes, I think the temperature has changed in 
America today. I think people are aware now that they can take 
health into their own hands and that preventive medicine is 
probably a very important part of their lives. I think people 
are very aware of how diet, nutrition, health, exercise, and 
all kinds of protocols can really help them.
    My father discovered rather late in life that this is an 
area he wished he had known more about.
    Mr. Waxman. Well, I'm not a scientist, but as a lay person 
and a consumer, I want to be able to have more of a say over 
what my family has in terms of healthcare and what decisions 
they would make and I would make about whatever medicine that I 
may or may not decide to pursue. But I also want the doctors to 
be open to other--we call them alternatives--but other 
indications of good health care.
    To me, one of the shocking things is that how little in 
medical schools they teach doctors about nutrition. Even though 
now we are learning so much more about the value of nutrition. 
Dr. Ornish will be testifying and I know his long record in 
this area.
    It's important that we not look at medicine as one sort or 
another science--good science to me ought to be open to 
alternatives and then those alternatives ought to be tested and 
accepted wisdom ought to be retested as well so that we try to 
get the best that we can for all of our people.
    Have you had any obstacles or members of your family 
encountered any difficulties in trying to get access to these 
different remedies or different alternative practitioners?
    Ms. Seymour. I have had no difficulty whatsoever. There 
are--you know, we were talking about studies. There are 3,000 
blind and double studies, you know, done worldwide on the 
effects of herbal medicine and these studies comes from 
countries like Germany, Japan, France, and England. So there 
are studies that can be evaluated and I think it is rather 
remarkable that we accept their studies on making fair Mercedes 
or a German car and that is acceptable to us, but we disregard 
what the Germans have to say about homeopathy and they are 
really, probably, the foremost in the world in this area.
    I, obviously, have had no problem in finding help. No, and 
none of my friends. I would like to see the general public be 
able to have this. My sister just brought with me a very 
interesting report from England--from a part of England which 
is close to a house that I own where the National Health did a 
study to see the cost effectiveness and how it would affect the 
general public in terms of health. And they took half of that 
area of the National Health. They gave them regular medicine 
and the other half they used homeopathy and natural medicine 
and the results were astounding. The patient's response were as 
that 90 percent of them were very happy with the alternative 
medicine. Far less of them came back for repeated visits to the 
doctor afterwards and the cost was so much less to the National 
Health. So in England, they are taking this very seriously.
    Mr. Waxman. And we should take it seriously here. There is 
no question that if we can prevent disease, we are far better 
off. And I'm encouraged by the amount of attention I see in the 
press about encouraging people to exercise; watch their diet; 
to take care of themselves; and to understand the value of 
nutrition. This is, it seems to me, the direction that we ought 
to go as we learn more information.
    I am going to ask you one other question. Do you have any 
suggestions on how the Government can help individuals obtain 
access to alternative treatments that are safe and effective?
    Ms. Seymour. I think that it would be very useful to have a 
panel of maybe 200 to 300 practitioners that is decided within 
alternative medicine--as you know, there is 40 or 50 different 
forms of it--that they should decide who this panel is. And 
they should be the people who should monitor amongst themselves 
as to who is actually doing the right alternative medicine and 
who isn't. And I would like to see in the hospitals when you go 
to an oncologist, when you go to a hospital for cancer and you 
are offered chemotherapy, that someone talks to you about how 
you can support your immune system while you are going through 
this.
    It is very cost effective. In fact, I think you will find 
less people becoming sick if we educate them in what they can 
do with alternative therapies as a complement to, of course, 
the brilliant remedies that we do have in allopathic medicine.
    Mr. Waxman. I agree with you and----
    Ms. Seymour. Thank you. I'm glad you do. [Laughter.]
    Mr. Waxman. I was pleased that you mentioned the point 
about spirituality because I think that is very important in 
how people address their ailments because we don't know why, 
but we do know that those who have an optimistic view of the 
world often are able to heal themselves.
    Ms. Seymour. It is called holistic medicine because 
wellness is about the whole being. I personally have discovered 
that homeopathy and Chinese herbs do work for me and for 
everyone around me with remarkable results. So I do hope that 
money will be spent to enable this to be shared with the rest 
of the population.
    Thank you.
    Mr. Burton. Thank you, Mr. Waxman.
    Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    I want to commend you for bringing on this important issue 
before our committee. The hearing should help to stress the 
need for alternative and complementary treatments into the 
mainstream of health care and provide patients with a variety 
of treatment options. And I'm pleased that Dean Ornish is here 
to tell us about how he's attacked the problems with regard to 
heart situations.
    And I want to thank Ms. Seymour for coming with her 
examples of how homeopathic treatment has helped her. How did 
you find the homeopathic physician that you needed? Were they 
listed properly among physicians or were you just referred by 
another patient?
    Ms. Seymour. No, they are listed. They are quite easy to 
find. In fact, there is a brilliant thing called the 
Alternative Medicine Digest which is a phenomenal book that 
will tell you where you can find any practitioner and how all 
the different methods work. But homeopathy is quite easy to 
find all over the world.
    Mr. Gilman. One of the things I've found, Mr. Chairman, is 
that there is so little education on pharmaceutical agendas at 
the medical schools and I'm just wondering whether alternative 
medicine has reached the training in the medical schools.
    Would you know that Ms. Seymour?
    Ms. Seymour. I do know that my homeopath teaches, I think--
is it at UCLA? Yes, he teaches at UCLA and I just recently, 2 
nights ago, spoke to one of the top doctors at UCLA, Dr. 
Becker, who said that they were about to instigate a program 
there investigating the use of alternative medicine as a 
complement to what they were doing.
    Mr. Gilman. And maybe Dr. Ornish, in his testimony, can 
tell us a little bit more about the kind of training that 
exists in our Nation on alternative medicines.
    Studies have found, Mr. Chairman, that more than 40 percent 
of all of our people try alternative and complementary medical 
treatments, seeking out the advice of physicians with regard to 
these treatments. Many who have suffered through the agonizing 
effects of traditional cancer treatment, such as chemotherapy 
and radiation. We all know some of those examples are now 
turning more and more to complementary and alternative 
treatments like herbal therapy, meditation, and nutritional 
therapy.
    In a bill I introduced several years ago--and I'll keep 
introducing it until we get some place--is a preventive 
medicine to make certain we do more in prevention that can save 
us more dollars on the cure if we apply prevention 
appropriately. And I'm pleased that more and more nutritional 
advice is finding its way into our medical system.
    In our Nation, it is some sort of a stigma when we talk 
about alternative medicine, and as a result, funding 
alternative studies has been difficult for physicians and 
researchers. Significant achievements are being made, though, 
in the cures for cancer that are occurring overseas and in 
Europe and Asia. I think it is long overdue that our Nation 
works together with its foreign counterparts, sharing 
information, sharing strategies and treatments, and to provide 
our Nation with easy access to those treatments.
    Some patients in our Nation have the ability to travel 
overseas to receive alternative treatments, and we continually 
hear about how they go to great lengths to try to find some 
proper remedy. But all Americans should be afforded that 
opportunity to access all forms of treatments, both traditional 
and alternative. We should pool our resources to create 
affordable, beneficial alternatives, to establish treatments in 
an alternative form, from which all of our patients can 
benefit.
    So, Mr. Chairman, I thank you for focusing attention on the 
studies that have shown that these alternative complementary 
treatments create positive results. It is our hope that, with 
hearings such as this, these treatments will be integrated into 
our healthcare system.
    I thank our panelists, Ms. Seymour and Dr. Ornish, for 
coming before us.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Gilman. Mr. Kucinich.
    Mr. Kucinich. Thank you again, Mr. Chairman. I want to 
again state for the record that I think that the Chair is 
performing a very valuable public service, as is Mrs. Seymour 
for her participation. This is a subject that we are only 
beginning to get into on a national level, and Congress has a 
great ability here to coordinate a lot of knowledge. Again, it 
needs to be said that Mr. Burton is doing something here that 
is important for the country. I think that he should be 
supported in his efforts. That is why I am here.
    I also think that there is something about alternative 
medicine which is uniquely symmetrical with democracy and 
democratic tradition. We in this country believe in individual 
responsibility. Alternative medicine certainly does that. Would 
you agree, Ms. Seymour?
    Ms. Seymour. Absolutely.
    Mr. Kucinich. What would be your view as to how those who 
you love and your family have had more control over their own 
lives by being able to seek alternative therapies?
    Ms. Seymour. Well, for example, it was pointed out to me 
the other day that mammograms, which are routinely done on 
women, are now shown to be causing cancer unnecessarily. There 
are other ways of discovering the breast health with 
thermography and ultrasound used together, and then the 
mammogram used to bolster that, to make sure that the symptoms 
are discovered.
    There are other options in so many different areas. I think 
the whole feeling of wellness, the whole concept of holistic 
medicine is to want to be healthy and to want to be in a well 
state, rather than constantly patching one's self up with 
bandaids that will take away symptoms. Somebody once described 
homeopathy to me as, if you drove a car and the oil light went 
on to tell you that something was wrong with your oil, you 
could have that light removed or you could actually go to the 
garage and find out what part of your car, what part of the oil 
system is not working. I think this is what we are talking 
about in alternative medicine, that if we become in tune with 
our health, then we may not get to such severe cases so often.
    Mr. Kucinich. Would you say that is self-empowering?
    Ms. Seymour. Yes, I think there's a lot of things we can do 
for ourselves, and we can empower people to take care of their 
own health. Rather than bandaiding it with things that take 
away symptoms, I think they can listen to their bodies and 
probably hear the symptoms and be able to notify the doctors as 
to what is really happening in their bodies.
    Mr. Kucinich. I think, Mr. Chairman, in conclusion, one of 
the values of this hearing, and hearing from Ms. Seymour and 
other witnesses, is that we start to shift our view of how 
health is defined. One could almost ask at the beginning of 
this hearing, alternative to what? Because as we broaden our 
knowledge of healthcare, more things that appeared at one time 
to be on the fringe or alternative suddenly become part of the 
mainstream.
    Ms. Seymour. I think also a huge issue today for all of us 
is the support of the immune system. We never really thought of 
the immune system until we had viruses and AIDS and hepatitis 
C, which I believe is to be the next huge problem we have here. 
I think we all have a responsibility to ourselves and to our 
families to keep ourselves in as good health as we can, so that 
we are able, our bodies are able to withstand these viruses.
    Mr. Kucinich. Mr. Chairman----
    Mr. Burton. If the gentleman will yield to me just for one 
comment--years ago, when I was in the Indiana General Assembly 
and we were working on the laetrile bill, I called Dr. Linus 
Pauling--and I am sure you have all heard of him. He won two 
Nobel Prizes. I think one was for cancer research or scientific 
research. I was talking to him about laetrile, and he 
interrupted me in mid-sentence and said, ``Well, that does have 
some promising qualities to it,'' he said, ``but the thing that 
I am convinced is going to save a lot of lives and prevent 
heart attacks and cancer is megadoses of vitamin C.'' More and 
more people today are agreeing with what Dr. Linus Pauling 
said, and this was about 20 years ago.
    I might add that he lived to be 92 years old and didn't 
have cancer or heart trouble.
    So thank you very much for yielding, Mr. Kucinich.
    Mr. Kucinich. Just in conclusion, so that we can move on 
here, what comes from any study of holistic medicine is an 
understanding that healthcare is a profoundly personal matter. 
In line with what I indicated previously about a symmetry with 
democratic tradition and personal responsibility, we learn, as 
we explore alternative practice, that there is something, a 
process that begins inside of each of us.
    Mr. Waxman referred to the potential for spiritual 
considerations in that. Belief systems, faith, and hope are all 
part of that process that, in effect, happens before we meet 
that outside world, which offers us a variety of choices. So I 
think that as we look at this, the many options which are 
available to us begin, first, with our own decision to be open-
minded in approaching the possibilities of better healthcare, 
which begin with ourselves.
    Ms. Seymour. Yes, we don't want to be statistics. We want 
to be considered as human beings, as people. You are very 
right; if you believe that you are going to be well and that 
you can be healthy, an enormous amount can be done. The mind 
can override enormous symptoms.
    Mr. Kucinich. Thank you again.
    Ms. Seymour. Thank you.
    Mr. Burton. Thank you, Mr. Kucinich. Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman. Again, this is a 
very informative hearing. Ms. Seymour, it is a delight to have 
you here. You are a role model. So, therefore, what you say has 
a tremendous effect on attitudes.
    I just guess I want to try to synopsize your feeling, and 
that is that attitude is altitude; as we approach something, 
attitude is critically important; that balance is important and 
openness. For instance, I think the American public has reached 
the point where we are skeptical. We just don't know what to 
believe. One day we hear about St. John's Wort or something 
that is going to take the place of the antidepressants. We hear 
about other possible medications or herbs that could be used 
for arthritis. From one day to the next week, we find that 
there are differences in approaches. So our confidence is kind 
of eroded. We just don't know what to believe.
    I guess what you are saying is you have got to continue to 
use mammograms, using that just as an example, since you 
mentioned it; you have got to continue to have co-rectal 
examinations, but at the same time you should be open to the 
totality or the homeopathy. Is this correct?
    Ms. Seymour. To some degree. There are other options to 
mammograms. I think the point I am saying is, rather than the 
routine mammograms that we blithely all take without 
considering the cost to ourselves healthwise in terms of the 
radiation and the fact that it could cause cancer, there are 
other ways of doing this which are far more cost-effective, 
which are thermography. I tried it the other day, and it is 
amazing how they can discover what is wrong with different 
parts of your body and accurate they were. I had a blind test 
done on me because I didn't believe in it. Sure enough, we 
called up my internist and my dentist, and the findings were 
absolutely agreed up. So there are other ways of detecting 
disease like that, without necessarily hurting the human being.
    So I guess it should be investigated anyway.
    Mrs. Morella. It is an openness, that we look to the 
various facets, the various aspects. I just don't want people 
to think that they can't go off and get these examinations 
regularly, or that they should not be part of their routine.
    Ms. Seymour. No, but I do think that it would be nice if we 
could spend some of those billions of dollars on looking at 
thermography. There are only 30 people practicing that in this 
country right now, whereas there are thousands in Europe, where 
they are doing this very successfully. This would also be a 
wonderful option for people in Third World countries, where 
they could really detect what was wrong with patients very 
inexpensively, very quickly. A lot of people could be helped.
    Mrs. Morella. I want to thank you. Also, I want to thank 
you, Mr. Chairman, for the articles that you have given us all, 
too, that I think are very uplifting in terms of the number of 
opportunities that are open with regard to alternative 
medicine. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. Would you yield to me just real quickly?
    Mrs. Morella. Indeed, yes.
    Mr. Burton. I don't have the exact figure in front of me, 
but I think $20 million is being used for alternative therapies 
and alternative therapy research by the departments of health 
in our country, and $2.3 billion is being used for conventional 
medicine. I think one of the things that we need to do, and I 
hope we are stressing today, is giving more funds for the 
alternative therapy research and complementary research, 
instead of just going ahead with the conventional approach that 
we are taking.
    We had a doctor named Dr. Barry Marshall. Dr. Barry 
Marshall came up with a theory that stomach ulcers were not 
caused by nerves; they were caused by a bacteria. Well, 
conventional wisdom in the medical profession for years and 
years and years and years was that it was caused by nerves. 
They said that bacteria could not live in the acidity of your 
stomach. Well, he did some research and found that it could. He 
gave a speech--I think it was in Belgium--about this and he was 
laughed off the stage, literally. He then went home and drank 
the bacteria, became deathly ill, and cured himself with a 
combination of bismuth and some antibiotics.
    But the point is, there are billions of people in this 
country that are suffering from stomach ailments that can be 
cured because of his research. But he was ignored, not unlike 
what Pasteur was, for a long time. He proved that the bacteria 
does live in the stomach, and this alternative therapy research 
that he did alone is going to save thousands, maybe millions, 
of lives and millions of people from this kind of pain.
    That is why I think, and I hope, these hearings that we are 
going to continue to have will point out the fact to the 
National Institutes of Health, to FDA, and everybody else, that 
we need to have more funds used for research into alternative 
therapies. Because if we do that, we are going to find, like 
Ms. Seymour has said, that there are alternatives out there 
that are not as dangerous that are going to help humanity.
    I thank the gentlelady for yielding.
    Mrs. Morella. Thank you. NIH is in my district, and I know 
that they are moving ahead with alternative medicine.
    I just wanted to point out there is no one panacea. So we 
need to look at the entirety, and not just one little facet of 
it.
    Ms. Seymour. Yes, if I may quickly add--I didn't know if I 
had time in my 5-minute speech, but we see incredible results 
with acne, which a lot of people suffer from acne and adult 
acne. Homeopathy can cure this within 4 days--it is amazing--
without the use of injections and steroids and antibiotics and 
birth control pills and Accutane, which, of course, is very bad 
for women.
    There are options also with migraines and things like 
these. These are huge issues for the American public that can 
be helped very inexpensively and very quickly without any 
adverse effects.
    Mr. Burton. Thank you, Mrs. Morella. Ms. Norton, do you 
have any questions?
    Ms. Norton. Thank you, Mr. Chairman. Mr. Chairman, I think 
these hearings are very important, and I appreciate that you 
have called them.
    And I appreciate your last statement about research, 
because in a very real sense oppositional thinking about 
alternative medicine and traditional medicine is very 
unhealthy, is not good for your health. Hearings like this I 
think are important for the way in which they--for particularly 
the notion of what is necessary in order to have an informed 
public.
    Ms. Seymour, I think we are very fortunate that you have 
been willing to come forward. By your own high profile, you 
raise the profile of this very important subject.
    Our country is abysmally behind on coming to grips with 
alternative medicine. It is hard for me to criticize my country 
in this regard when I realize what it has done in traditional 
medicine; that in a real sense it is like being ahead in 
soccer, and I think you neglect the other sports. We are so 
ahead on what we have given to the world in everything from 
AIDS to--that we let this slide. We are only now coming to 
grips with it.
    I have read books that--I must tell you, the only books 
that convince me about anything are books that have been 
written by people trained in medicine who have something to 
compare it with.
    I have a question about the way we go about this. I have to 
confess that, without scientific evidence, I have myself often 
been very open to alternative suggestions about what to do, 
and, anecdoctally, have found some of them to be effective. I 
am more inclined to insist upon the scientific medicine when it 
comes to traditional medicine than I am to alternative 
medicine. That is proper, because what the public kind of reads 
in the newspaper, in the magazines, gets absorbed as what kind 
of alternative medicine should be done.
    That is why what the chairman said about research is no 
less important for alternative medicine than it is for any 
other kind of medicine--I want to just take issue with your 
notion, for example, about mammograms. Some of us who are women 
in this Congress have had a hell of a time getting women to be 
sufficiently unafraid to get mammograms because of all this 
stuff about radiation; that the whole notion that anybody 
without research would say, ``Well, I think I am going to wait 
until thermo-something''--look, all the scientific evidence now 
tells us that there is not radiation danger, and that if there 
is, it pales beside the danger of not getting a mammogram.
    It is very important that there be research into 
alternative methods. I would support that. But, again, the 
public really is just left out there now. Whatever comes 
through the microphones, including what we say here today, 
becomes what you ought to go out and do. That is not the case 
with traditional medicine, because there has been some 
regulation.
    I associate alternative medicine as well with preventative 
medicine. That is one of the reasons why I am a great supporter 
of it. I applaud what NIH is doing. I don't think it is enough, 
and I think it came too late, but I think it is important to 
do.
    I don't agree that more training is necessary in order for 
doctors to do this. I have a young doctor. Young doctors who 
keep up with good medicine will prescribe alternative medicine. 
If you go to a doctor who does not know anything about 
alternative medicine, you ought not go to that doctor, because 
if she is reading in the literature, she ought to know what is 
effective and not effective. I don't think people should listen 
to anybody except a doctor or a scientist about what is 
effective or not effective, although I applaud the notion of 
doing what I do. As an intelligent consumer, if you all don't 
know yet, and nobody tells me that this is harmful to me, well, 
I am going to do what I think is good for my health. That does 
not stand in the place of research.
    Now I have a question to ask you, because I found your 
testimony very balanced. For example, you report in your 
testimony 110 deaths annually from the use of medical drugs. 
Well, you know, we can get to the point where somebody is going 
to report, because there are no controls, because there is no 
good information about deaths from alternative medicine. We are 
already getting those kinds of reports.
    The question for society for alternative medicine is the 
same question society had when it had to decide whether or not 
you ought to have x rays for your teeth or whether you ought to 
listen to these people that say that, if you do, something will 
happen; you will float into the universe.
    You have to intelligently decide whether or not there has 
been sufficient investigation, and there is no way for the 
public to know now. Thus, the public does what I do. Look, if 
you say a megadose of A, B, C vitamin will help me feel better 
in some way, well, fine, let me do this because nobody told me 
it will kill me. So I am going to use a megadose. It is not 
very good, Eleanor, but that is what I do.
    Now in your testimony you also said something very 
important here. You said, ``I am not here to vilify western 
medicine; I am looking for inclusion, not exclusion.'' And that 
is where our country has failed--exclusion of alternative 
medicine.
    I would like to ask you whether or not--I noted that in 
your breast cancer example these three women who used 
alternative medicine had found that the doctors had said to 
them, ``There is nothing more we can do for you.'' Now, of 
course, there are women all over America, and these stories are 
beginning to come out, for whom something can be done, who 
believe that this kind of traditional medicine or that kind of 
traditional medicine for breast cancer isn't what they should 
do. So they are more likely to go into some alternative which 
has not been scientifically shown.
    I am asking you whether or not you would feel more 
comfortable if there were far more--if our country engaged in a 
regime of greatly increased controlled studies, so that the 
public could make informed decisions, instead of anecdotal 
decisions, about what is best for their health.
    Ms. Seymour. There are studies, conclusive studies in----
    Ms. Norton. I am not talking about where there are studies. 
I am talking about where there are not studies.
    Ms. Seymour. We should make studies, yes, and I would like 
that. I think this is what we are asking for today. Let's 
appropriate some of those funds and get onto it right away, and 
have those tests done, maybe even blind testing, the way they 
did it in England.
    Ms. Norton. It must be blind testing.
    Ms. Seymour. Do it in the hospitals, and allow the people 
to have it, rather than waiting another 20 years and then find 
out that what they were doing for 500 years did work.
    I am certainly not saying that mammograms shouldn't be 
done, and I am certainly not saying that in breast cancer you 
should not have chemotherapy. What I am saying, and what I 
testified--and I am sorry if I was misunderstood--is that we 
are talking about inclusion here. We are talking about doing 
chemo alongside Chinese herbal medicine, which will help the 
patient to survive not only the cancer, but the chemotherapy. 
We have seen countless stories of people where this has worked.
    I guess while we are eventually, however this happens in 
government, appropriating those funds, so we can investigate 
these and find out who the true practitioners are, what the 
real scientific data, and everyone gets happy about it. 
Meanwhile, Americans are trying these things. You, indeed, 
yourself are trying these things. You, indeed, are sort of 
admitting that they do work for you.
    Ms. Norton. Absolutely do.
    Ms. Seymour. Absolutely.
    Ms. Norton. I want to make sure that I am not having an 
effect in my mind rather than in my mind.
    Ms. Seymour. Well, the other people are the doctors, and 
they will tell you, but, from what I have been told in my data, 
maybe one or two people, if that, died last year from 
homeopathy, from side effects of homeopathy. It is almost 
impossible to die from a side effect from those forms of 
alternative medicine, whereas it is very easy and has been 
scientifically proven that over 110,000 people died last year 
from adverse drug reactions. These are not people who took 
drugs without being told by the doctors. These were people who 
were specifically designated to take those drugs for those 
specific things, and at the time it seemed to be appropriate 
for them to take those things.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Burton. Ms. Chenoweth.
    Mrs. Chenoweth. Thank you, Mr. Chairman.
    Mrs. Seymour, I can't tell you how very pleased I am that 
you are here today.
    John Kennedy, back in the 1960's, who was not the President 
of my party, but I am deeply grateful to him for raising the 
awareness of how important exercise is in our life. And perhaps 
you will help supplement how important it is that we control 
our own health and stay ahead of the power curve in terms of 
boosting our immune systems and staying healthy. You may very 
well be one who will take us on into the next century in 
boosting the public awareness that we need alternative forms of 
medicine.
    You, like I, we are both very busy women. We shake a lot of 
hands, and we see a lot of people. We fly on a lot of 
airplanes. We are exposed to a lot of things. I find it 
interesting, Mrs. Seymour, that I am 61, and my 30-something-
year-old staff have to follow me out to Idaho and back for a 
weekend and take 2 days to recover. [Laughter.]
    Now the only difference is that I believe in homeopathy and 
I take massive doses of vitamin C. The reason I did, after 
having worked for physicians for 18 years and really 
appreciating all that they do for their patients and the love 
they have for their patients, and how much they give--
nevertheless, there was such an entire freeze-out of other 
alternative forms of medicine from the status quo institutional 
form of medicine, that when someone suggested to me, when I had 
a very severe case of Manieres disease, that I see a 
naturopath, I thought they were crazy. Finally, when the 
physician suggested surgery in the head for a shunt to relieve 
the symptoms of the Manieres disease, I finally went to a 
naturopath, who took a hair analysis and put me on zinc. The 
symptoms disappeared.
    I went out of obligation to the naturopath because of the 
deep respect I had for the person who just begged me to do it. 
Now not everybody can have a miracle cure like that, but it 
certainly made me realize alternative forms of medicine are so 
important to us being able to stay healthy and not ever have 
to, hopefully, expend a lot of money as we reach the final 
years of our life, which I don't expect will be for quite a 
while for me, but I intend to stay healthy.
    Thank you very, very much for your contribution. It is 
deeply appreciated.
    I want to share with you the fact that there was a recent 
decision in the 10th circuit court of appeals involving two 
litigants, Dirk Pearson and Sandy Shaw, who challenged the FDA 
on the first amendment rights for people involved in homeopathy 
to be able to talk about the results of their alternative 
medicine. The court agreed with them that it is a first 
amendment right. In fact, the court bifurcated the decision and 
said, we will deal first with the constitutional issue of first 
amendment rights, and then we will come down after with a 
decision on the Administrative Procedures Act. That was 
significant in the way the court did that. The court, 
obviously, felt very compelled about first amendment rights in 
this issue. I was thrilled to see the way the court dealt with 
it. If you haven't seen that case, I recommend it to you.
    I think that it is important, Mrs. Seymour, that the 
government, the Congress recognize the importance of 
alternative form of medicine. I think that we need to support 
it in research. But, looking down the pike, if we give 
government money for supporting research, I want to make sure 
that those first amendment rights are guarded, and that 
government does not exert undue control, to the point that, 
again, we lose control of our own ability to stay healthy.
    Thank you so much for what you are doing, and thank you 
very much for being here.
    Ms. Seymour. Thank you.
    Mr. Burton. Thank you, Ms. Chenoweth. Ms. Norton has an 
introduction, I think, real briefly here.
    Ms. Norton. I thank you, Mr. Chairman, for allowing me to 
introduce some youngsters who I am very glad have gotten to 
hear this.
    I do want to say to Ms. Chenoweth that the reason that the 
young people who travel back are so much more tired than you 
may be the same reason that you don't look 61. [Laughter.]
    Good genes.
    Mrs. Chenoweth. Very good genes.
    Ms. Norton. Mr. Chairman, I am pleased that the youngsters 
from the Knolle Elementary School had an opportunity to sit in. 
They are part of a program that I run for D.C. youngsters, who, 
after all, live in the District, called D.C. Students in the 
Capital. I want to welcome them. I will take them out in the 
hall now to say a few words to them.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Ms. Norton, and welcome to you, 
students. It is nice that you are here learning more about your 
government.
    Mr. Davis.
    Mr. Davis. Thank you very much.
    I know it has been a long morning for you, Ms. Seymour, but 
thank you very much, because I think what you have to say is 
very important. Sometimes somebody of your stature coming up 
here and saying it just wakes everybody up to something we have 
been hearing anecdotally for some time.
    My wife is an OB/GYN. She was a tenured professor of 
obstetrics and gynecology, but I think she would agree with 
everything that you have said today.
    I don't think there is any reason we can't, up here in 
Congress, direct some money for the complementary medicine 
departments or courses in the medical schools, so at least 
doctors will have some exposure to this. Right now they don't 
seem to get it. In fact, conventional medicine, there is almost 
a push on against some of this.
    Your coming up here and speaking about it, and opening up 
that a lot of us have anecdotal information, I think helps that 
a lot.
    The key here is that Washington and Congress, and even the 
medical establishment, doesn't always know best. We are dealing 
in some very changing areas where we are learning new things 
every day. We want to enable consumers to make their best 
choice. We best do that by the kind of things that you have 
outlined here--giving them the full gamut of information, so 
they can make intelligent choices, and letting our doctors and 
medical community, NIH, and others do some exploration to see 
why some of these things seem to work; that it is not 
necessarily in somebody's head if it is working medi-physically 
as well.
    So you have done a great job. I appreciate your being here, 
and I hope that we can followup legislatively to some of that. 
I know it has been a long morning. I won't use all my time. But 
thank you very much.
    Ms. Seymour. Thank you.
    Mr. Burton. Thank you, Mr. Davis. Ms. Biggert.
    Ms. Biggert. Thank you, Mr. Chairman.
    Mrs. Seymour, I was in Bolivia over our break on another 
issue, but we had the opportunity to stop by a museum, which 
was a museum of preventative medicine by the natives, Indians, 
of Bolivia. It was quite interesting to see the bottles of 
herbs and the way that they addressed--by looking at animals 
and the organs, how they would determine whether somebody had 
that illness.
    I wondered if that really is a part of homeopathic 
medicine. Has there been any movement to categorize what is 
used in, well, Native American or other countries, the types of 
medicines that they use that has been of help to us?
    Ms. Seymour. Well, I think, obviously, the people to ask 
about homeopathy are here today. You should address them on 
that issue.
    I always found it amusing, when I was playing Dr. Quinn, 
that digitalis is what the Native Americans suggested as one of 
the herbs that she used. Then, of course, the Native Americans 
had herbs which, of course, are now used in synthesized form in 
our regular medicines today.
    So, yes, very much, I think these are things that we should 
look into. I mean, we all now take echinacea, a large number of 
the population. Not very long ago, everyone said ``echinacea 
what?'' What is this stuff? As he said, Linus Pauling and 
vitamin C, and I am sure Bolivia has a lot of things to offer 
us and I am sure there are experts here who can answer you 
exactly on that.
    Ms. Biggert. Thank you, Mr. Chairman.
    Mr. Burton. Thank you.
    We now have a vote on. So what I think we will do is we 
will have the committee break, go down and vote, and come back. 
As soon as we return--and I apologize to the second panel--we 
will have the second panel come forward.
    Dr. Ornish, I understand you have limited time. You have 
time constraints. So we will have you testify first and see how 
we are going on time. Then, at around noon, we have food and 
refreshments back there for the panelists. So we will break 
around noon, and then we will come back and finish right after 
we have lunch.
    Ms. Seymour, you have been a lovely witness. We really 
appreciate your being here. If you can stay around later, fine. 
If not, we will see you later on today.
    Ms. Seymour. Thank you.
    Mr. Burton. Thank you very much.
    We stand in recess to the fall of the gavel.
    [Recess.]
    Mr. Burton. Because of Dean Ornish's time constraints, I 
would like to go ahead and get started with his testimony. Then 
we will break shortly after that for about 20-25 minutes, so 
everybody can get a bite to eat. Then we will come back and 
finish with the second panel.
    Would the second panel come forward.
    So, Dean Ornish, welcome. We really appreciate your being 
here. I have read a great deal about you. Since we want to save 
some time and get you on your way in a timely fashion, we will 
go ahead and let you testify now.

    STATEMENT OF DEAN ORNISH, M.D., PRESIDENT AND DIRECTOR, 
PREVENTIVE MEDICINE RESEARCH INSTITUTE, AND CLINICAL PROFESSOR 
    OF MEDICINE, UNIVERSITY OF CALIFORNIA, SAN FRANCISCO, CA

    Dr. Ornish. Well, thank you, Mr. Chairman. I don't know how 
much time you want, but I am available until 10 after 1, just 
so you know.
    Mr. Chairman, members of the committee, Ms. Clay, thank you 
very much for the opportunity to be here today. My name is Dean 
Ornish. I am a physician. I am founder, president, and director 
of the nonprofit Preventive Medicine Research Institute and a 
clinical professor of medicine at the University of California, 
San Francisco, School of Medicine, where I am also one of the 
founders of the new Osher Center for Integrative Medicine 
there.
    The theme of all of my work is simple, and that is, if we 
don't treat the underlying cause of a problem, any problem--in 
this case, heart disease--that more often than not, the same 
problem comes back again. We get a new set of problems or side 
effects that we hadn't counted, or on a social and health 
policy level we are often faced with painful choices.
    Whenever I lecture, I often start by showing a cartoon of 
doctors mopping up the floor around a sink that is overflowing, 
and nobody is turning off the faucet--a little like ignoring 
the oil indicator light on the car that Ms. Seymour was talking 
about.
    During the past 22 years, my colleagues and I have 
conducted a series of clinical trials demonstrating for the 
first time that the progression of even severe coronary heart 
disease often is actually reversible by making comprehensive 
changes in diet and lifestyle. These include a low-fat 
vegetarian diet, moderate exercise, stopping smoking, a variety 
of stress management techniques, including stretching and 
breathing and meditation exercises, and a lot of emphasis on 
psyho-social and emotional support.
    This was a radical idea when I began my first study 22 
years ago. It has now become mainstream--the idea that heart 
disease is often reversible. It has become generally accepted 
by most cardiologists.
    In my testimony and in my research I am going to focus on 
heart disease, but I think it is also a much bigger issue. It 
is an example of how powerful changes in diet and lifestyle can 
be. We often think it has to be a new drug or a new laser or a 
new surgical technique, or something really high-tech and 
expensive to be powerful. We often have a hard time believing 
that these simple choices that we make in our lives every day 
can make such a powerful difference, but they do.
    In the research that my colleagues and I have done, we have 
used these very high-tech, state-of-the-art measures to prove 
the power of these very ancient and low-tech, and low-cost 
interventions.
    Within a few weeks after making these changes, the patients 
in these studies showed a 91 percent reduction in the frequency 
of chest pain. Most of them became essentially pain-free, 
including those who had been unable to work or even walk across 
the street without getting severe chest pain. Within a month, 
we found that those patients not only felt better, but in most 
cases they were better in ways we could actually measure. We 
found that the blood flow to the heart improved. We found that 
the ability of the heart to pump blood was better. After a 
year, we found that even severely blocked arteries began to 
become measurably less blocked, became improved, in 82 percent 
of the patients.
    These research findings were published in the most 
respected peer review medical journals, including the Journal 
of the AMA, the Lancet circulation, the American Journal of 
Cardiology, and others.
    This research was funded in part by the National Heart, 
Lung, and Blood Institute of NIH. Although it is very difficult 
to get funding to do this kind of work, and early on, when I 
began doing it, it was a bit of a catch-22, because it was 
thought impossible to reverse heart disease. So it was hard to 
get funding from the government and from the conventional major 
foundations. Without the funding, we couldn't show it was 
feasible. And since they didn't think it was feasible, they 
didn't want to fund it. And then they said, well, where's the 
evidence to show that we should fund it? It becomes a self-
fulfilling prophecy.
    I might add, by the way, that in order to get the studies 
underway, we said, let's just raise the money as we go along 
and hope that we can do it. As we began to get more data 
showing it was working, initially financed by just individuals 
who thought this was an interesting idea, over time we later 
got major foundation and much later NIH support.
    In our latest report, which was published in the December 
16, 1998 issue of the Journal of the AMA, we found that these 
patients were able to stay with it for 5 years, not just for 1, 
and, on average, they showed even more reversal of heart 
disease after 5 years than they did after 1 year.
    In contrast, the patients who were in the comparison or 
control group, who were making more moderate changes, got worse 
after 1 year, and even worse after 5 years. So moderate changes 
don't go far enough even to stop heart disease from getting 
worse. But the good news is that, if people are willing to make 
bigger changes, they can stop and in most cases even reverse 
it.
    We also found that the incidence of cardiac events, like 
heart attacks and strokes and operations, was 2\1/2\ times 
lower in the patients who made these lifestyle changes than in 
the control group.
    There has been strong interest in the general public as 
well, as Ms. Seymour has alluded to. A 1-hour documentary of 
our work was broadcast on NOVA, the PBS science series, and was 
featured in Bill Moyers' series, ``Healing in the Mind.''
    I think these research findings have particular 
significance for older Americans and the Medicare population. 
One of the most meaningful findings was that the older patients 
who made lifestyle changes in our research improved as much as 
the younger ones. When I began doing this work, I thought that 
the younger patients with milder disease would be more likely 
to show reversal, but I was wrong. The major determinant of 
improvement wasn't how old or how sick they were; it was how 
much they changed. In fact, the oldest patient, who is now 83, 
showed more reversal than anyone.
    This is, I think, a very hopeful message for people in the 
Medicare population, because it says, since the risk of bypass 
surgery and angioplasty increase with age, that the benefits of 
changing lifestyle occur at any age, I think that this has 
particular benefit for older Americans and offers many of them 
new hope and new choices that they didn't have before.
    I think these findings have particular significance also 
for women. This is by far the leading cause of death in women, 
especially in the Medicare population. They have less access to 
conventional treatments like bypass surgery and angioplasty. I 
spoke for the Surgeon General's Conference a couple of years 
ago on this very issue. When women do get operated on, they 
don't do as well as men. They have higher rates of mortality 
and morbidity following a bypass or an angioplasty. So that is 
the bad news.
    But the good news: Women seem to be able to reverse heart 
disease easier than men can, whether through diet and lifestyle 
or even through lipid-loren drug therapy. If you give a woman 
estrogen to lower the risk of heart disease, you raise their 
risk of breast cancer. But if you change lifestyle to lower the 
risk of heart disease, you lower the risk of breast cancer and 
osteoporosis. Here again, when you treat the cause, you don't 
have to make these painful choices that often occur when we 
literally or figuratively just bypass the problem without also 
treating the cause.
    The next research question, once we demonstrated that heart 
disease was reversible, and that became generally accepted, 
was: How practical is this? People said, well, sure, you can 
reverse heart disease, but you live in California; they will do 
anything there; no one else can do this. So we began training 
hospitals around the country.
    As you know, there has been bipartisan interest in finding 
ways of controlling healthcare costs without compromising the 
quality of care. Many people are concerned that the managed 
care approach is simply shortening hospital stays and shifting 
to outpatient surgery and forcing doctors to see more and more 
patients in less and less time, while compromising the quality 
of care, because, here again, they are not treating the cause. 
It is frustrating for physicians, and it is frustrating for 
patients as well.
    Beginning 5 years ago, my colleagues and I established the 
Multi-Center Lifestyle Demonstration Project, a nonprofit 
institute. We wanted to find out: How practical is this? Can we 
train other health professionals in other parts of the country 
to do this? Can they motivate their patients to the same degree 
that we did? Can this be not only a medically effective, but 
also a cost-effective alternative to things like bypass surgery 
and angioplasty?
    In the past, lifestyle changes have been viewed as 
prevention, but we are showing they can also be an alternative 
treatment. I went to insurance companies and I said, ``Would 
you pay for these kinds of interventions?''
    They said, ``No, we don't pay for diet and lifestyle.''
    ``Why not?''
    ``We don't pay for that because that is prevention. We 
don't pay for prevention.''
    ``What is wrong with prevention?''
    ``Twenty to thirty percent of people change companies every 
year. It may take years to see the benefits. So why should we 
spend our money today for some future benefit that may occur 
years later, when chances are some other company will get it?''
    And I said, ``It is the right thing to do.'' That wasn't 
persuasive enough. So I said, ``It is not just prevention. It 
can be an alternative treatment. For every patient, every man 
or woman, who chooses to change lifestyle rather than, say, 
undergoing bypass surgery, you save $50,000 immediately--real 
dollars today, not just theoretical dollars years later.''
    They replied, ``That sounds great in theory. We don't think 
people can do it. So it is too hard to change lifestyles. So if 
we pay for your program, most patients who can't follow it, we 
will end up paying for their bypasses anyway. Now our costs 
have gone up rather than down.''
    So the missing links really were the data on adherence. 
Then not only the immediate savings, but also the long-term 
savings can occur because so many bypasses and angioplasties 
clog up after just a few months or a few years; 40 to 50 
percent of angioplastied arteries clog up again within just 4 
to 6 months.
    There is potentially a lot of money to be saved. In 1994, 
over $15 billion in the United States was spent just on those 
two operations. So that even if only 20 or 30 percent of the 
people were willing to make these changes, it is a savings of 
billions of dollars per year--real dollars today, because it is 
a direct alternative to these treatments.
    So we have trained a diverse selection of hospitals--
Alegeon Emmanuel Center in Omaha, and Mercy Medical Center in 
Omaha, Beth Israel Medical Center in New York, Mercy Hospital 
in Iowa, Broward General Hospital in Ft. Lauderdale--a whole 
list of them that are in my written testimony. Also, High Mark, 
which is western Pennsylvania Blue Cross/Blue Shield is both 
providing the program as well as covering it. Over 40 other 
insurance companies are covering this program as a defined 
program at the sites that we have trained.
    We have been approved by the Technology Assessment 
Committees of Blue Cross and of Blue Shield of California 
separately two separate times, and found to be reimbursable and 
noninvestigational.
    What we found, which we published in the American Journal 
of Cardiology 3 months ago, was that 77 percent of men and 
women who were eligible for bypass surgery were able to avoid 
it by changing lifestyle, by going on our program.
    Mutual of Omaha, which was the first insurance company to 
cover this program, calculated savings almost $30,000 per 
patient immediately. These patients reported reductions in 
chest pain or angina comparable to what you can get with bypass 
surgery or angioplasty, but without the costs and the risks of 
going through that.
    Now what about Medicare? Over half a million Americans die 
annual from coronary heart disease, making it by far the 
leading cause of death in both men and women. As I mentioned, 
$15.6 billion was spent in 1994, more than for any other 
surgical procedure. Not everybody is interested in changing 
lifestyle, but a lot of people are, and billions could be saved 
if people changed.
    But, as you said in your opening remarks, Mr. Chairman, for 
many Americans the denial of coverage is the denial of access. 
Surgery is covered; angioplasty is covered, but lifestyle 
changes are not.
    Because of the success of our research and demonstration 
projects, we asked HCFA, the Health Care Financing 
Administration, to consider providing coverage for this 
program, or ones like it, if they had the evidence to prove 
that they were. I really believe that this can help provide a 
new model for lowering Medicare costs without compromising the 
quality of care or access to care. It is a new model that is 
more caring and more compassionate and more cost-effective and 
competent, because we are treating the cause; we don't have to 
have these painful choices.
    This approach empowers the individual. It can immediately 
and substantially reduce healthcare costs by billions of 
dollars, while improving the quality of care, rather than 
limiting access to it. It offers the information and tools that 
allow individuals to be individually responsible, personally 
responsible, for their own healthcare choices and decisions, 
and it provides access to quality, compassionate, and 
competent, affordable healthcare to those who most need it.
    Now, without going into the details--and I am happy to 
elaborate in the question-and-answer period--I first began 
meeting with officials from HCFA in June 1994, almost 5 years 
ago, and I have had many, many meetings and conversations with 
them since then. Then, as now, the concern was that, if we 
start to pay for anything other than surgical procedures, and 
so on, if we start to pay for anything that is, ``alternative'' 
medicine, then a Pandora's box would be opened. In other words, 
anyone who had any kind of alternative medicine program would 
say, well, you are covering this program; why don't you cover 
ours? Or, even in a more limited way, people who had one for 
treating heart disease would say that. I understand this 
concern. It is a valid one.
    In the first meeting almost 5 years ago with people from 
HCFA, I was accompanied by the medical director at that time 
with Mutual of Omaha. He said,

    We have the same concerns and here is how we dealt with it: 
We only pay for programs that have scientific data to support 
them, whether they are traditional or nontraditional 
approaches. And this right now is the only lifestyle 
intervention that has scientific data from randomized control 
trials showing that it can reverse heart disease. So we paid 
for it. And when other people develop those data or they have 
programs that are similar enough, we will pay for those, too.

    I appreciate very much the leadership of Honorable Nancy-
Ann Min DeParle and her colleagues, Dr. Jeff Kans, Dr. Bob 
Berenson, Dr. John Whyte, and others at HCFA. After going back 
and forth with them for years now, during which a variety of 
different options have been considered, including a 
demonstration project, I am respectfully requesting that HCFA 
now make a decision to cover this program for selective 
patients.
    Another demonstration project would, in effect, duplicate 
largely what we have already done and what we have already 
published in peer review journals. It would cost millions of 
dollars. It would take years before a coverage decision could 
be made, and I think the time is right to do it now because 
Americans can benefit from this.
    Coverage can be limited to those people who are choosing 
this program as a direct alternative to a bypass or 
angioplasty, because these are the patients for whom the cost 
savings are the most dramatic and the most immediate. It, also, 
can reduce the likelihood of fraud and abuse because you have 
to get a letter from your doctor saying that this person is 
sick enough to need a bypass. You have present test data from 
angiography and other tests showing that this person really is 
qualified to have a bypass or angioplasty. Because the program 
is difficult, people who aren't interested in changing 
lifestyle to this degree aren't going to do it, and they self-
select, which is good. Because the real question is not, how 
many Americans are willing to change; the real question, if I 
were at HCFA, would be, how likely is it, if we pay for 
someone, that they are likely to succeed? If they self-select 
for people who are likely to succeed, that is OK. That is part 
of the reason why we found that almost 80 percent of people 
were able to avoid these operations.
    Then my colleagues and I would be happy to work with an 
outside group. I am meeting in 10 days with the heads of the 
American College of Cardiology at their annual scientific 
meeting in New Orleans to say, you could be a credentialing 
group to certify who has the scientific evidence--not just as 
anyone who has the evidence to support that their program 
works. That can meet HCFA's understandable need for 
credentialing of programs, to make the program available to the 
people who most need it.
    In response to an earlier request from Bruce Vladeck, 
Honorable DeParle's predecessor, Dr. Claude Lenfant, the 
Director of the Heart, Lung, and Blood Institute at NIH, 
evaluated this program, found it to be safe--actually, had to 
go through a process saying it was safe for older Americans to 
walk and meditate and quit smoking and eat vegetables, but we 
have been through that process.
    We also have strong bipartisan letters of support from some 
of the most conservative Republicans, some of the most liberal 
Democrats, and everyone in between. I think this committee is 
an example of how this is a basic need that affects all 
Americans. This is an area we can all come together, I think at 
a time when our country really needs that kind of bipartisan 
support.
    We have support from some of the country's most eminent 
medical authorities: Dr. Alexander Leaf, who was the chief of 
medicine at Harvard; Dr. Christine Cassel, who is the immediate 
past president of the American Board of Internal Medicine in 
the American College of Physicians; Dr. Marion Nestle, the 
chairman of nutrition at NYU, and so on.
    We also appreciate very much a recent appropriation from 
Congress to the Department of Defense to make this program 
available at the Walter Reed Army Medical Center. I am very 
grateful to Dr. James Simbol, who is the president of the 
Uniformed Services University, and Dr. John Mazzuchi, in the 
Office of the Secretary of Defense, who are here this morning.
    Because if heart disease can be reversed, not only can it 
save money in the military, but the implications for prevention 
are even greater. As we have talked about, we focused on heart 
disease as a model, but I think the same kind of lifestyle 
interventions can reduce the likelihood of diabetes, 
hypertension, obesity, breast cancer, prostate cancer, and 
colon cancer.
    I am directing a study now, in collaboration with Dr. 
William Fair from Memorial Sloan-Kettering Cancer Center, who 
has been the chief of urology there, and Dr. Peter Carroll, the 
chairman of urology at UCSF, to see whether the progression of 
prostate cancer might be stopped or reversed. It is the first 
randomized control trial to look at that. Our preliminary data 
are very encouraging, and if it is true for prostate cancer, 
chances are it may be true for breast cancer as well.
    A recent editorial by the editors of the New England 
Journal of Medicine last year said, ``There can't be two kinds 
of medicine, conventional and alternative.'' This is very 
similar to what was said earlier about the JAMA editorial.

    There is only medicine that has been adequately tested and 
medicine that has not; medicine that works and medicine that 
may or not work. Once a treatment has been tested rigorously, 
it no longer matters whether it was considered alternative at 
the outset. If it is found to be reasonably safe and effective, 
it will be accepted.

    Now this program, our lifestyle program, has been tested 
rigorously. It has been found to be safe and effective. It 
works. So, therefore, I respectfully submit that it should be 
covered by Medicare for selective heart patients as an 
alternative to a bypass or angioplasty.
    Everyone benefits. Patients have access to new choices that 
empower the individual. Health professionals have new options 
to serve their patients. Medicare does something innovative to 
lower healthcare costs without compromising the quality of 
care, and Congress can demonstrate bipartisan leadership in an 
area that is important to so many Americans.
    I appreciate very much the opportunity to be here today. I 
would be delighted to answer any questions you may have.
    [The prepared statement of Dr. Ornish follows:]

    [GRAPHIC] [TIFF OMITTED]56145.021
    
    [GRAPHIC] [TIFF OMITTED]56145.022
    
    [GRAPHIC] [TIFF OMITTED]56145.023
    
    [GRAPHIC] [TIFF OMITTED]56145.024
    
    [GRAPHIC] [TIFF OMITTED]56145.025
    
    [GRAPHIC] [TIFF OMITTED]56145.026
    
    [GRAPHIC] [TIFF OMITTED]56145.027
    
    [GRAPHIC] [TIFF OMITTED]56145.028
    
    [GRAPHIC] [TIFF OMITTED]56145.029
    
    Mr. Burton. Thank you, Dr. Ornish.
    Now HCFA has been unresponsive to your request, is that 
correct?
    Dr. Ornish. No, sir, I wouldn't put it quite like that. I 
think Honorable DeParle has been very responsive, and I have 
great admiration and appreciation for what she and her 
colleagues are doing.
    But I think that to make this a covered benefit will 
require congressional statutory authority because it currently 
isn't. They don't cover, just like many insurance companies 
didn't cover, lifestyle interventions.
    Mr. Burton. I wasn't aware of that. So, without 
congressional authority, they can't expand the funding for this 
kind of a program?
    Dr. Ornish. Well, these are things we don't learn much 
about in medical school, so I am not sure.
    Mr. Burton. I will have to check into that. I will tell my 
staff to check into that, but we will try to contact the people 
at HCFA and HHS to see if we can have a dialog about that. We 
may have some people from those agencies here today; I think we 
do back there. I will be happy to talk to them about that as 
well.
    Dr. Ornish. Thank you.
    Mr. Burton. I have a number of my colleagues and friends 
who have had bypass surgery and have had angioplasty, and it is 
depressing and surprising for me to hear you say that, within 4 
to 6 months after angioplasty, the arteries can once again 
close up.
    Dr. Ornish. Yes, in 30 to 50 percent of the cases.
    Mr. Burton. In 30 to 50 percent of the cases?
    Dr. Ornish. Yes, sir.
    Mr. Burton. Is that widely known? I was not aware of that.
    Dr. Ornish. Well, there is a lot that isn't widely known. 
This is widely known within the medical profession. But, you 
know, it goes even further than that, sir.
    Mr. Burton. If it is fairly wide known in the medical 
profession, why is that not communicated to patients and the 
public, because I don't think it has been? Angioplasty, at 
least the people that I have talked to that have had it, is 
seen as a panacea. Obviously, they ask them to have dietary 
changes, and so forth, to try to keep it from coming back, and 
they take an aspirin and all that sort of thing.
    But the fact is, I don't think anybody I have ever talked 
to that has had angioplasty knows that there is a good chance 
it will reoccur within a short period of time.
    Dr. Ornish. Well, that is the problem, getting the 
information out, and that is part of why I write books and give 
lectures and things, and why I appreciate the chance to be here 
today.
    But if you actually look at all the scientific data, if we 
talk about we want evidence-based, randomized, double-blind--or 
not double-blind, but placebo-controlled studies. There have 
been three major randomized trials of bypass surgery, and in 
every one of them they found that bypass surgery prolongs life 
or prevents heart attacks in only about 2 percent of people. 
Those are the most severe diseases.
    Mr. Burton. Only in 2 percent of the people.
    Dr. Ornish. Two point one percent, to be exact. These are 
people with left main coronary artery disease and poor left 
articular function.
    No study has ever even been conducted that compares 
angioplasty with just drug therapy to see whether it prolongs 
life or prevents heart attacks. So for the vast majority of 
Americans who get operated on for these two operations, for 
which billions of dollars are spent every year, there is no 
evidence that it prolongs their life or prevents heart attacks. 
What it does do is relieve their chest pain or their angina. So 
it has value. But we found in all of our studies a greater than 
90 percent reduction in angina or chest pain within weeks when 
people make bigger changes in diet and lifestyle than most 
doctors recommend.
    Mr. Burton. Within weeks, you say?
    Dr. Ornish. Within weeks.
    Mr. Burton. Usually, when people go in and they are 
diagnosed with arteries that are closed or almost completely 
closed, the doctors prescribe surgery or angioplasty within a 
very, very short period of time.
    Dr. Ornish. Yes, sir.
    Mr. Burton. The danger is, somebody says, I have been 
diagnosed with 90 percent closure in one artery and 100 percent 
in another, and the doctor says, if we don't act pretty 
quickly, you are going to have a heart attack. The fear factor 
is very great.
    Dr. Ornish. That is correct.
    Mr. Burton. For them to talk to somebody like you, who 
says, if you change your diet and change your lifestyle, in 4 
to 6 weeks things will get better--they worry about being 
around in 4 to 6 weeks.
    Dr. Ornish. That is right.
    Mr. Burton. So how does a person who goes in, they say you 
have got closed arteries; you run the risk of a heart attack--
how does he get that information, when his doctor says you have 
to have surgery; you have to have angioplasty?
    Dr. Ornish. Well, it is a very important question. Let me 
respond on two levels. The first is, how do you get the 
information out? And the other is, what does the medical 
science show us? In terms of how to get the information out, I 
think you change reimbursement, you change medical practice, 
and you change medical education. I used to think that good 
science was sufficient, and I was naive. I think good science 
is important, but generally sufficient to motivate lasting 
changes in physician behavior. I think we have to change 
reimbursement. And I want to make it clear, most doctors are 
motivated by service, but if you are trained to do these things 
and you get reimbursed to do these things, then that is what 
people do.
    So if Medicare were to cover this, it would have 
implications that go far beyond this. It would change medical 
education as well as medical practice.
    Now it turns out that the 90 percent lesions are not as 
dangerous as the 30 percent ones. That is the conventional 
thinking now among some of the leaders in the field, like Dr. 
Valentine Fuster at Harvard, and so on. It seems a little 
counterintuitive because you think that, the more blocked it 
is, the greater the danger. The more blocked it is, the more 
likely it is to cause chest pain. But it is actually the more 
mild lesions, the 30 to 40 percent, that are more likely to 
cause heart attacks because they are more unstable.
    Now no one is going to bypass the 30 percent blockage, and 
yet, those are the ones that may be the most dangerous. But 
when a person changes diet and lifestyle to the degree that we 
do, or even when they go on cholesterol-lowering drug therapy, 
the endothelium, the lining of the artery, stabilizes, and the 
risk of a heart attack goes down dramatically.
    Most patients don't know that the surgery is unlikely to 
prolong their life, unless they are unstable, which is a 
separate category, which most patients are not, or they are the 
2.1 percent of patients. For most patients, the surgery is not 
going to prolong their life or prevent a heart attack. They 
don't know that, if they were willing to change their 
lifestyle, they could accomplish the same reduction in angina.
    Mr. Burton. Let me ask you two quick questions.
    Dr. Ornish. Yes, sir.
    Mr. Burton. If a person who normally would have a very 
small chance of survival, like you said, it is not going to 
change their life-and-death situation if they have the heart 
surgery or the angioplasty. If they have the heart surgery or 
if they took the alternative therapy, do you have any studies 
or any figures that show how long their lives would be 
extended, or do you have any kind of an average?
    Dr. Ornish. Yes, sir. We found, in the study that came out 
in the Journal of the American Medical Association 2 months ago 
in December 1998, there were 2\1/2\ times fewer cardiac events 
in people who changed their lifestyle compared to the control 
group that made more moderate changes. So people not only feel 
better, but in most cases they are better.
    We used quantitative arteriography to measure the 
blockages. We used cardiac PET scans, positron emission 
tomography, to measure blood flow to the heart. The state-of-
the-art showed these patients got better and better over time.
    Now not everybody wants to change lifestyle. I don't even 
tell my own patients to change. But I do believe in freedom of 
choice. I think it is a very American idea. For those people 
who don't want to change, I find a good surgeon or a good 
interventional cardiologist or I put them on drugs. But for 
that subset of patients who are willing and who are motivated 
to change--and that subset is a lot bigger when people really 
know what the facts are--I think it would be nice to give them 
the freedom of choice, too, by covering programs like this.
    Mr. Burton. Thank you.
    Ms. Norton, do you have any questions?
    Ms. Norton. Yes, Mr. Chairman. This hearing is very well-
structured, Mr. Chairman, I think, because we are going to get 
to questions of representatives of the Federal Government to 
establish responsibility here. I am glad we heard of your own 
testimony beforehand, Dr. Ornish. I think it is very valuable 
testimony, precisely because you are a credentialed and 
experienced physician.
    Dr. Ornish. Thank you.
    Ms. Norton. The balance that you bring to the table is very 
important, particularly as we try to play catch-up, it seems to 
me, on making available these approaches. What you have spoken 
about is hard to call an alternative approach because it is 
also a preventive approach.
    Dr. Ornish. Yes.
    Ms. Norton. It is what most fascinates me about homeopathic 
medicine. I appreciate the full information you have given us. 
For example, the chairman asked an important question: Well, 
how in the world, if 30 to 50 percent close back up again, as 
it were, but you indicate that they do bring some relief. 
Obviously, a physician wants to bring some relief to the chest 
pains. So he wants to do whatever he can; he wants to do it 
quickly. So he has something that works and he hopes that the 
next thing will work. I want to ask a question about that.
    I do believe what you say about, well, let those who will; 
most people won't. Well, let's do it for those who will. I do 
think there is a very strong case to be made, since I do 
believe--and here you are talking about what we do have 
evidence about--that these changes, if you are willing to make 
them--can both prevent heart disease and help retard it once 
you have had a heart attack.
    This morning there was a report--I heard it on the National 
Public Radio; it was a very informative report--about autopsies 
that were done on young men. I think it was young men from the 
Korean War. Now they have done all of the studies.
    Dr. Ornish. Yes, ma'am.
    Ms. Norton. It was quite amazing. Essentially, it is not 
about old fogies like me. It is about how young people like my 
legislative assistants are getting their arteries all clogged 
up, as I speak----
    Dr. Ornish. Yes.
    Ms. Norton [continuing]. And won't pay any attention to it 
until they get to be middle age, and then they have found that 
these people in their twenties are showing signs, significant 
signs, of heart disease. By the time they got as old as 35, 
they just had it. Nobody even thinks about heart disease at 
those ages.
    Two questions: One is, if this information is available, so 
that physicians, who also don't concentrate on young people, in 
part, because they don't go to the doctor, if physicians look 
to young people as a way of dealing with heart disease, a 
runaway problem in this society, won't this, in turn, get us to 
the point that you want to get, which is the change in the 
lifestyle will become more automatic?
    I ask this question because young people became 
environmentalists when it took old people, who had been so used 
to being wasteful, to understand it. So they became teachers, 
as it were, for older people.
    Is there a way, now that we know that heart disease it not 
simply a disease of middle and old age, to get to where you 
want to get simply by changing our focus from the pool that has 
been the target to a younger pool, in which case some of the 
problems get prevented and the others, it seems to me, we are 
able to deal with in a lifestyle you indicate. I would like to 
hear you discuss how this might be done, if it could be done, 
if it would be effective. Second, how it might be done, given 
the fact that young people not only believe they are immortal, 
but have no reason to seek the help of physicians, for the most 
part?
    Dr. Ornish. Well, Ms. Norton, I appreciate so much the 
question. You are absolutely right; studies have shown that 
American soldiers killed in Korea, Vietnam, the Persian Gulf, 
even at the age of 19, had significant plague in their coronary 
arteries. A study done by Dr. Gerald Berenson in Louisiana 
found that children who died in accidents, that half of them 
had severe plaque, and all of them had blockages in their 
aortas. So this is a problem that begins in childhood and 
progresses over a period of decades. So you are quite right; 
that is where we have to begin.
    Now the old joke is, if I change my lifestyle, if I eat 
this way, am I going to live longer or is it just going to seem 
longer? You know, that is what a lot of young people think, 
that lifestyle changes----
    Ms. Norton. Either will do.
    Dr. Ornish. Pardon me?
    Ms. Norton. Either will do at this point. [Laughter.]
    Dr. Ornish. Well, there is this myth that the good life is 
eating a high-fat diet and getting drunk and using cocaine and 
smoking and getting under a lot of stress, and that it is 
boring to have a healthy lifestyle. Part of what I have learned 
is that telling a young person they are going to live to be 86 
instead of 85 does not motivate them. In fact, it hardly 
motivates people who are 85--[laughter]--because people want to 
feel better.
    The paradox I have found is that it is actually easier to 
make big changes than to make small ones. That is why I began 
changing when I was 19, growing up in Texas, eating meat a lot, 
because I found I felt better. I had more energy. I could think 
more clearly.
    Now you know Viagra came out last year at the same time the 
Nobel Prize was awarded to the doctors who discovered a 
compound called nitric oxide, which dilates blood vessels. One 
of the things that happens when people change their diet is 
that their sexual function often improves, particularly in 
older men, because it is not just your heart that gets more 
blood flow. People find that they think more clearly. They have 
more energy. Now, as a scientist, those are harder things to 
measure than arteries in coronary blood vessels getting better, 
but from the motivational standpoint, one of the most effective 
anti-smoking ads was not ``smoking causes cancer,'' but ``do 
you want to taste like you have been licking an ashtray when 
someone kisses you?'' It puts it into the here and now.
    That is what younger people really respond to, changes that 
affect their quality of life in the short run. We doctors like 
to talk about risk factor reduction and prevention, but most 
young people find that boring. I have found that we need to 
talk about changes in lifestyle that improve the quality of 
your life very quickly. That is what happens when you make 
changes. I think it is never too early to begin making these 
changes, and it is never too late to begin making them.
    Ms. Norton. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. Thank you. Thank you, Doctor.
    Mrs. Chenoweth.
    Mrs. Chenoweth. Thank you, Mr. Chairman.
    Dr. Ornish, I was fascinated as you gave your testimony 
because you almost gave it word for word with rarely looking at 
your notes. [Laughter.]
    Interesting observation.
    I wanted to ask you, it seems that the dog in the manger 
seems to be the insurance companies. You said it better than I 
did. You were more politically correct. You said, once 
reimbursements get in line, then the rest of the policy will 
follow. I couldn't agree with you more.
    On page 4 of your testimony, you mention that 77 percent of 
the patients who were candidates for bypass surgery or 
angioplasty responded very positively to your recommendations 
or those types of recommendations, and that Mutual of Omaha 
said that it saved $30,000 per patient.
    Dr. Ornish. Immediately.
    Mrs. Chenoweth. Immediately. These guys look at the bottom 
line--why aren't they responding to this? What is wrong? That 
startled me.
    Dr. Ornish. Well, they are responding. That is why 40 
insurance companies are now covering this program in the 
hospitals that we have trained. But if HCFA, if Medicare were 
to cover this, then most of the other insurance companies would 
follow suit. That is really the Rosetta Stone. That is where 
the leverage point is. That is where the opportunity for change 
is the greatest.
    If we can focus on the area where the cost savings were the 
most immediate and the most dramatic, then I am hoping it will 
be a much smaller step for them to see that there is value in 
paying for preventive services as well. But let's start in an 
area that I think is where the cost savings can really be shown 
the most quickly and the most dramatically. That is why we 
focused on that area, but it is by no means limited to that in 
terms of the benefits.
    Mrs. Chenoweth. I have been frustrated because other 
alternative forms of medicine, such as the practice of 
chiropracty and naturopathy, and so forth, there seems to be so 
much manipulation in terms of what will be paid for and what 
won't be paid for, and what takes certain approvals, and so 
forth. So I hoping that shortly we will see people working 
together--MD's working in consultation with other people who 
have an expertise in an area that they could offer great 
advice. That is my hope.
    In following up with the chairman's comments, this 77 
percent figure fascinated me. Doctor, does that mean that 23 
percent of the people would be eligible and would need bypass 
or angioplastic surgery because they were the unstable 
candidate, those that may not live for the next week or so?
    Dr. Ornish. The patients, for whatever reason, 23 percent 
ended up getting operated on during that 3-year period. It was 
a 1-year program. We followed them for 3 years.
    Now an interesting fact is that, because the cost 
differential between a bypass and paying for lifestyle 
intervention is so great--it is, say, maybe $50,000 for a 
bypass and, say, $7,000 for a year of lifestyle training--if we 
just delayed surgery for a year and a half, and then 100 
percent of people failed, the interest saved on that $50,000 
would more than cover the cost of a lifestyle program. We have 
certainly done a lot better than that.
    So from an economic, hard-dollars standpoint, this makes 
sense. I would love to see coming out of these hearings two 
things. One has already been discussed, which is increased 
funding for research. I am a scientist. That is what I do. I 
have great appreciation for the value of science to help sort 
out what works and what doesn't work, and for whom and under 
what circumstances, so we can cut through a lot of the hype and 
say, what really is the science here?
    The other thing that I would like to come out of this is 
that there are a few so-called alternative approaches, like 
what we have done, that have been proven to work, that are both 
medically effective and cost-effective. Let's now take them to 
the level of reimbursement, which is where change really can 
happen. Then I think you will find it will affect medical 
education, as well as medical practice, as well as medical 
research.
    Mrs. Chenoweth. Thank you, Doctor.
    Mr. Burton. We are going to break for lunch for about 20-25 
minutes because I can hear people's stomachs growling, and we 
have some food for the panelists along with some refreshments.
    But I would like to end up by asking you just one really 
hard question.
    Dr. Ornish. Yes, sir.
    Mr. Burton. Do you believe, as a scientist and a doctor, 
that there is resistance from some areas of government and 
medicine because of the profit that is to be made by 
pharmaceutical companies and the medical profession in 
performing these types of operations and prescribing these 
types of medicines?
    Dr. Ornish. Well, time for lunch. [Laughter.]
    Mr. Burton. I don't want to take too much time, but this is 
very serious, because there has been some suspicion among some 
of us in Congress that people who work at the Food and Drug 
Administration and at Health and Human Services have been 
influenced unduly by pharmaceutical companies, for instance. 
Many of them have been paid fees for some forms of research. 
They have put on boards by some of the pharmaceutical 
companies, and that tie kind of concerns us, because what we 
want, as Members of the Congress, is the best quality of 
healthcare, whatever it is, for the American people. That 
emanates, in part, from the pharmaceutical companies and the 
research they do, but it also emanates from holistic 
approaches. So I am concerned that maybe our health agencies in 
the Federal Government might be unduly influenced, and that is 
why I would like to have your opinion about that.
    Dr. Ornish. Well, let me put it in a slightly different 
context. I think most doctors are genuinely interested in doing 
what is best for their patients. I believe the vast majority of 
doctors are generally interested in service. But, at the same 
time, having been trained very conventional--you know, I went 
to medical school at Baylor and did my course surgery medical 
surgical rotation with Michael DeBakey, the eminent heart 
surgeon. I did my post-graduate training at Harvard and Mass. 
General, and I am at UCSF now.
    I understand that training process, and I also understand 
how hard it is to be a doctor these days, when you are getting 
squeezed from all sides. If managed care says you have to see a 
new patient every 7 minutes, even if you are interested in 
nutrition or dealing with the psychosocial and the emotional 
and spiritual dimensions of health and well-being, you don't 
have time to do it. In 7 minutes, you don't have time to talk 
to about the problems with the marriage or the problems at work 
or the problems with the kids on drugs, whatever it happens to 
be. You, basically, have time to listen to the heart and lungs. 
You write a prescription for a cholesterol-lowering drug. You 
are on to the next patient.
    It is profoundly unsatisfying for most physicians and for 
most patients. Most physicians, according to the latest 
surveys, which I am sure you have seen, wouldn't recommend 
medicine as a career for their sons or daughters because it is 
not fun.
    Now we are trying to say, look, if you treat the cause of 
the problem, if we change reimbursement, we offer different 
approaches. Of course, there is an economic incentive the way 
things are set up now, but why can't there be an economic 
incentive to do things differently. We always have the money to 
pay the $50,000 for a bypass. Why not the $7,000 for a year of 
lifestyle training, which is a whole team of people, not just a 
physician, but a dietician, an exercise physiologist, a stress 
management instructor, a psychologist, and so on, to deal with 
the cause of the problem?
    If we can make it economically reimbursable, then we change 
those other incentives. Some patients do need surgery. Some 
patients do benefit from drugs. But I think we also need to 
include these other approaches which are of permanent benefit, 
which can really empower the individual and make such a huge 
difference in both their quality of lives and in their 
survival.
    Mr. Burton. Thank you, Dr. Ornish. That was a great 
statement, and it had some real political overtones. Have you 
thought about entering politics? [Laughter.]
    Dr. Ornish. Well, I am trying to build bridges here.
    Mr. Burton. Yes, I know you are, and I appreciate that.
    We have some people from HCFA here, don't we? Do we not? 
Don't we have somebody from the Department here? Can you come 
back and have lunch with us? I would like for Dr. Ornish and 
you and I to talk a little bit.
    OK, I think we will break now for about a half an hour and 
have a little bite to eat. You have to leave at 10 after 1?
    Dr. Ornish. Yes, sir, but I just want to say, in closing, 
how grateful I am to you for organizing these hearings and for 
the opportunity to be here today.
    Mr. Burton. Thank you, Doctor.
    We will reconvene in about 30 minutes.
    [Recess.]
    Mr. Burton. We will reconvene.
    We will have other Members, I believe, coming back here 
shortly. They are running all over the place because there's a 
number of hearings going on today. So I apologize for the 
people coming in and out.
    But I would like to have Dr. Brian Berman of the University 
of Maryland and Mr. Ollie Johnson and his lovely wife, Barbara, 
come forward. We will have your testimony now.
    I appreciate very much your patience and hope you did get 
something to eat. We normally don't provide that service, but 
today we did.
    Why don't we start with Dr. Berman? Dr. Berman, do you want 
to start and give us an opening statement? If you want to, you 
can submit your statement for the record, and then summarize.

   STATEMENTS OF BRIAN BERMAN, M.D., ASSOCIATE PROFESSOR AND 
  DIRECTOR, PROGRAM FOR COMPLEMENTARY MEDICINE, UNIVERSITY OF 
   MARYLAND SCHOOL OF MEDICINE, BALTIMORE, MD; AND OLLIE AND 
  BARBARA JOHNSON, DEAN ORNISH LIFESTYLE PATIENT AND SPOUSE, 
                          COLUMBIA, SC

    Dr. Berman. Thank you very much. Mr. Chairman, members of 
the committee, I am extremely honored to be here today and 
given the opportunity to provide testimony to the Committee on 
Government Reform.
    I am a board-certified family physician and pain management 
specialist, and I am also trained in acupuncture and homeopathy 
at the Royal London Homeopathic Hospital. I went on to look at 
some of these therapies and incorporate those into my practice 
because I was frustrated that I didn't have all the answers for 
my patients--excellent training for acute care, trauma, but not 
for a lot of the chronic diseases that we see every day.
    I have been practicing integrated medicine for the past 17 
years. I am also associate professor at the University of 
Maryland School of Medicine and director of the complementary 
medicine program there, and principal investigator on the 
National Institute of Health-funded Center for Alternative 
Medicine Pain Research and Evaluation, as well as CAM research 
grants from the NIH and the Department of Defense. So I have 
been asked to present today from the three perspectives as a 
clinician, as a researcher, and as an advisor to the government 
for the past 6 or so years.
    Our center was started in 1991, and we really started it 
because of some of the remarks that were made today. Back then, 
I really felt that these types of therapies weren't going to be 
brought into the mainstream of medicine unless there was a 
proven scientific base to these therapies. So we started back 
then, in a time when there was a great deal of public interest, 
but the medical community's interest was low, if not hostile. 
As we all know, and it has been said today by you, there has 
been a great sea of change over the past 7 or 8 years. It has 
gone from 3 in 10 to 4 in 10 Americans using these therapies, 
and worldwide 75 percent of the world uses these forms of 
therapy as their primary form of healthcare. In this country, 
we see that there has been an increase in expenditures to $21 
billion just for the providers' side, and another $13 billion 
for the other out-of-pocket expenses of herbs, vitamins, books, 
and so forth.
    What has also changed over this period of time has been the 
government's support, and that started really with the opening 
of the Office of Alternative Medicine at the NIH in 1992, 
through the support of Senator Harkins and others. Thanks to 
the efforts of this Congress, now it has become a center with 
increased autonomy, increased budget, which has brought the 
much-needed funding or the start of the much-needed funding to 
an area that does not have access to the deep pockets of an 
industry, the sort of research and development industry, of a 
pharmaceutical industry that we have with modern medicine.
    So I became involved with the Office of Alternative 
Medicine at its start through chairing the Ad Hoc Advisory 
Committee, the consensus meetings in Chantilly and then the 
report for the NIH ``Alternative Medicine: Expanding Medical 
Horizons Report,'' and as an advisory council member. Over 
these years, I have seen tremendous progress in the field. One 
has been the Office of Alternative Medicine's funding 11 
centers of research, and that has started the infrastructure. 
Over the past 2 days, I was at meetings of the principal 
investigators, and the excitement to see people representing 
the field of cancer, heart disease, pediatrics, pain, many 
areas, women's health, and having from 7 to 10 projects, really 
getting out information that the Congress and the public really 
wanted to see.
    Pilot projects have been funded, and now definitive studies 
in several promising areas are underway, such as osteoarthritis 
or acupuncture in the use of osteoarthritis in the elderly, St. 
John's Wort clinical trial, and some of these definitive 
studies that we have all been wanting to see happen.
    At the University of Maryland we focus on the area of pain, 
and particularly the modalities of acupuncture and mind/body 
therapies. I would like to use these right now as an example of 
the progress that has been made in some areas of complementary 
medicine, and then give a picture of where they stand as 
regards the government policy.
    We at our place are building a mosaic of information, of 
evidence, basic science information, looking at how does 
acupuncture actually work, studies ongoing there; randomized 
controlled trials. Is acupuncture and mind/body therapy safe, 
effective for acute pain conditions such as post-operative 
dental pain, as well as chronic pain problems like 
osteoarthritis in the elderly, lower back pain, fibromyalgia? 
Also, what is going on in the actual clinical setting, tracking 
the outcomes and the real-life experience of patients?
    We are also collecting and evaluating the existing 
literature. One of the criticisms of complementary medicine, as 
we heard alluded to today, is the general lack of scientific 
evidence. We have found and collected over 11,000 citations in 
complementary medicine and pain alone. The difficulty, in part, 
has been finding this literature, that it is in either foreign 
journals or nonmainstream journals.
    So our investigations to date, they paint the picture that 
acupuncture and mind/body therapies, part of which we heard 
earlier by Dean Ornish, mind/body therapies and acupuncture 
have great potential, whether alone or as adjunct to therapies, 
for many of the pain problems. More research is needed to 
complete this picture and fill in the gaps.
    While this research is important and the building block for 
practicing evidence-based healthcare, how is it being brought 
into the public arena, where it can be useful in setting 
clinical guidelines and affecting healthcare policy? Some of 
the things that have occurred--back in 1994, the NIH and the 
FDA held a joint conference looking at acupuncture. The outcome 
of that meeting was that they determined there was enough 
evidence to say that acupuncture was no longer going to be 
listed as an experimental device.
    The NIH Acupuncture Consensus Conference was held in 1997. 
The outcome there was they found there was sufficient evidence 
to expand its use into conventional medicine and to conduct 
future studies. They listed a whole range of conditions, from 
addiction, to asthma, to pain conditions, where there was 
fairly good evidence.
    There was also a Technology Assessment Conference in Mind/
Body Therapies for Pain and Insomnia, held through the National 
Institutes of Health, for which I was a panel member. There the 
findings were that there was strong evidence for treating a 
wide range of chronic pain conditions.
    Both conferences recommended these therapies be covered by 
healthcare payers. This is far from the reality today. So the 
recurring theme of coverage comes up. Insurers and healthcare 
companies, they put them on today sometimes as additional 
riders or reduced rates. Over the 7-year increase in patients 
usage that we saw from those surveys, there wasn't any change 
in the coverage.
    What about the government-funded healthcare programs? I 
would like to just give you a quick story about one of my 
patients. Before I came here, last week when I was preparing 
for this testimony, one of my patients, an elderly gentleman 
with chronic back pain, whose insurance is Medicare, called me, 
and he said, ``I won't be able to come for treatment any 
longer.'' Now he had tried all the conventional treatments for 
his chronic back pain without success. He came to me. We 
treated him with acupuncture. Maryland has acupuncture 
licensing laws. I am licensed in the State of Maryland to 
practice acupuncture. He benefited greatly over the course of 
about 4 months' time. Now he has to come back and say, it is 
not going to be covered, so he has to go back to the treatment 
which he had before, physical therapy, which really didn't 
benefit him. And as a side, there isn't much in the way of 
strong evidence to show the efficacy of physical therapy for 
chronic back pain.
    At the end of the day, who is being served by this? 
Certainly, not the patient, who now has to give up an effective 
treatment for him, and certainly not Medicare. I think it is 
time to start considering complementary and alternative 
medicine as viable healthcare options in our healthcare system.
    So how do we do this? With over 200 modalities under this 
broad umbrella ``complementary medicine,'' it could seem an 
overwhelming task to know what information there is, which 
treatments merit consideration based on solid evidence. At our 
university, part of our program, one of our main efforts has 
been in gathering the best information and trying to 
disseminate that.
    Part of that effort is through the Cochrane Collaboration, 
which is an international organization dedicated to evaluating 
all medical therapies. So we are coordinating this 
international field for complementary medicine as part of the 
Cochrane Collaboration, and through these efforts, there now 
exists a specialized registry of randomized controlled trials 
that is available worldwide of about 4,000 clinical studies and 
another 4,000 we are considering.
    We and others worldwide are involved with reviewing this 
evidence with a systemic review and then drawing conclusions 
that can help guide clinical decisions and future research. 
There have been 164 of these reviews completed, and it is this 
type of information that can help guide the integration of 
complementary medicine into the mainstream.
    So, in conclusion Mr. Chairman, I offer the following: We 
need continued proactive funding by the government. Most 
complementary alternative medicine therapies are not 
patentable, and therefore, of little interest to industry. We 
need to continue to investigate the safety, efficacy, cost-
effectiveness, and use the full range of methodologies from 
randomized controlled trials to basic sciences to health 
services research.
    No. 2, we need quality information that is succinct and 
evidence-based made available to the public, to researchers, 
payers, and policymakers.
    No. 3, based on this research and quality information, we 
need to make complementary therapy more accessible, especially 
to those with little disposable income. I think this can be 
accomplished, one, through coverage, through Medicaid/Medicare, 
and, two, through setting up demonstration programs at places 
like the VA system, military medicine, the Bureau of Primary 
Health Care.
    Then, last is setting up the President's commission. There 
was language to set up the President's commission. I think we 
should go forward with that. I think that will help us 
facilitate other government agencies become involved in this 
field.
    I think the continued interest and support of your 
committee and other government programs will help ensure that 
ours and future generations benefit from the availability of 
effective healthcare approaches, regardless of whether they are 
labeled alternative, complementary, or conventional.
    Thank you very much.
    [The prepared statement of Dr. Berman follows:]

    [GRAPHIC] [TIFF OMITTED]56145.030
    
    [GRAPHIC] [TIFF OMITTED]56145.031
    
    [GRAPHIC] [TIFF OMITTED]56145.032
    
    [GRAPHIC] [TIFF OMITTED]56145.033
    
    [GRAPHIC] [TIFF OMITTED]56145.034
    
    Mr. Burton. I have some questions, but we will go ahead and 
hear the other panelists, and I will ask you about those in 
just a moment.
    Mrs. Johnson, ladies before gentlemen.
    Ms. Barbara Johnson. Thank you.
    Mr. Burton. Would you pull the microphone pretty close? 
Thank you very much.
    Ms. Barbara Johnson. Mr. Chairman, members of the 
committee, thank you for the kind invitation to allow me to 
testify at this hearing today. My name is Barbara Johnson, and 
I have been my family's caregiver for 42 years. I appreciate 
the opportunity to share with you mine and Ollie's journey to 
the Dr. Dean Ornish's Program for Heart Disease Reversal.
    In 1987, my husband, Ollie Johnson, was diagnosed with 
heart disease. He had a heart catheterization at Richland 
Memorial Hospital in Columbia, SC, which showed that he had a 
70 percent blockage in one artery and a 90 percent blockage in 
another. His doctor did not think that he was a candidate for 
any kind of surgery, so he prescribed medication for him. All 
of the medication was provided by the pharmacy at Moncrief Army 
Hospital at Ft. Jackson, SC, since Ollie is retired from the 
Air Force.
    At my insistence, the doctor also provided a way for Ollie 
to go to the cardiac rehab program at the University of South 
Carolina. On my own, I bought cookbooks which were recommended 
by the American Heart Association, because we didn't really get 
any nutritional information from the doctor, and started 
cooking, ``heart healthy.'' We stopped eating beef and ate 
chicken, pork, and fish. We stuck to this regimen for several 
years. He exercised periodically by walking 3 to 5 miles a 
week.
    In 1991, I began to see Dr. Dean Ornish on various talk 
shows and became intrigued with his program. I bought his book, 
``Dr. Dean Ornish's Program for Reversing Heart Disease,'' and 
knew that the program would work for us.
    When Ollie had his next regularly scheduled appointment 
with his cardiologist, we mentioned the book and program to 
him, and expressed a keen interest in trying it. The doctor 
quickly dismissed us and said, ``You can't do that program. 
It's too harsh.'' I did not believe this, but was powerless 
against his suggestion. So for the next 4 years, we followed 
the American Heart Association diet with a 30 percent fat 
intake.
    By June 1995, when Ollie had his yearly checkup, it was 
discovered that his heart disease had gotten worse, and now a 
third artery had significant blockage. Knowing that the Dean 
Ornish program would stop the progression of the disease, I 
asked the doctor what did we need to do to stop the disease 
from getting any worse. By this time, the Richland Memorial 
Hospital offered the program. The doctor said that the only way 
that he knew of to get the disease to stop was to enroll in the 
Ornish program. So I asked him to please get us in the next 
class, and he did.
    We started the program in July 1995. For the first 3 
months, we were required to go to the hospital 3 nights a week 
for lectures, exercise, stress management, and supper. This is 
how we learned to live the program.
    At one point, our family members were invited to the 
hospital and they were given information on the program. Their 
questions were answered, and we all had a meal together. This 
event was invaluable to us because it emphasized the value of 
staying with the program and how family support was so 
important.
    I do not have heart disease, but I entered the program to 
support my husband and to ensure his success. In our home we 
eat and live the Ornish lifestyle. When we started the program 
in July, we were told that Ollie's insurance, Blue Cross/Blue 
Shield, would not pay for our participation. We had to pay 
$5,000 for Ollie and $1,000 for me. We paid $3,000 down and 
were given 2 years to pay off the remaining $3,000. We paid a 
monthly payment to the hospital.
    During the first year in the program, we faithfully stayed 
in compliance with all of the dietary, exercise, and stress 
management requirements. We filled out program compliance 
sheets daily and mailed them to the hospital monthly. We 
actually filled out these forms for 3 years. The first year was 
a year of learning--learning how to cook so that meals were 
tasty and satisfying.
    We also had to give ourselves time to adjust to the new 
lifestyle. Travel and eating out were challenges that we were 
up to and slowly but surely mastered. During the first 2\1/2\ 
years, whenever we traveled, we took an electric cooler and a 
two-burner stove and all of our food with us. If we couldn't 
find a restaurant to serve us, we would cook in our hotel room. 
We made this fun and never saw it as a hardship.
    After 3 years, I am very good at preparing our meals and we 
are both energetic and healthy. Ollie walks 15 to 20 miles a 
week and lifts weights three times a week. I walk 30 to 35 
miles a week, work out at the gym on weight machines three 
times a week, and take an aerobics class twice a week. And by 
the way, I am in training for the Cooper River Bridge Race.
    Another plus of this program is that our food bill has gone 
down dramatically. When you do not have to buy meat, you 
realize a substantial savings at the grocery store.
    When Ollie had the thallium stress test and blood work 
after 1 year, his test results were so favorable that his 
doctor took him off the Procardia and reduced the Tenormin from 
50 milligrams to 25 milligrams daily, and the doctor tells us 
on the side that he doesn't really think Ollie needs the 
Tenormin, but he is scared to take him off of it.
    Eliminating the Procardia amounted to a savings of $40 a 
month to the U.S. Army. The current cost of Tenormin is less 
than 1 cent per day. Every thallium stress test that he has had 
since then has been more favorable each year.
    The hospital had been sending Ollie's medical test results 
and our compliance sheets to the insurance provider. After we 
had paid on the remaining $3,000 for 13 months, the insurance 
company paid off the balance. The insurance provider currently 
pays for some patients to participate in the program. However, 
when we entered the program, the insurance provider would only 
pay if the participant had previously had a heart attack, 
bypass surgery, angioplasty, or stints.
    We are fortunate and grateful that the Dr. Dean Ornish 
program is available in Columbia. In July 1995, Columbia was 
one of only seven locations in the United States. However, 
there is a need for this program to be available throughout the 
United States. I believe that participation in this program has 
eliminated the potential of my husband having a heart attack or 
bypass or some other kind of invasive measure. I wholeheartedly 
recommend that this, the Dean Ornish program, be authorized 
under Medicare.
    I thank you for your attention, and I will be glad to 
answer any questions.
    [The prepared statement of Mrs. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED]56145.035
    
    [GRAPHIC] [TIFF OMITTED]56145.036
    
    [GRAPHIC] [TIFF OMITTED]56145.037
    
    [GRAPHIC] [TIFF OMITTED]56145.038
    
    Mr. Burton. Mr. Johnson, would you care to comment?
    Mr. Ollie Johnson. Thank you, Mr. Chairman. I'm Ollie 
Johnson, and I am the patient here. I appreciate the 
opportunity to share with you my experiences overcoming my 
heart disease and also my thoughts as a taxpayer.
    It is very sobering when one is told, ``You are going to 
have a heart attack.'' I was told that by my cardiologist, and 
later by a nurse while I was in the cardiac rehab. unit at the 
University of South Carolina. Fortunately, at this time in my 
life I feel very certain that it is not going to happen.
    My initial attempt to seek treatment in 1987 was at the 
Moncrief Army Hospital at Ft. Jackson. I was seen by a clinical 
nurse who administered an at-rest EKG. There were no visible 
symptoms since I was not put under stress. Consequently, I was 
told that I had no problem.
    We were not satisfied with this diagnosis, and 
subsequently, saw my current cardiologist, who at that time 
diagnosed blockage after a more thorough examination and 
verification by cardiac catheterization. After completing the 
cardiac rehabilitation in 1987 and changing my lifestyle, the 
possibility of a heart episode still remained. When I started 
the Dean Ornish program to reverse heart disease in 1995, 
initial tests showed that my heart disease had progressed, but 
simply at a slower pace.
    After the first 6 months in the Ornish program, tests 
showed a significant lowering of my cholesterol levels, 
favorable levels of my HDL, LDL, and triglycerides. This was 
viewed by the Heart Center staff as the environment in which 
reversal takes place.
    After 1 year, the progression of my disease completely 
stopped. After the second year, there was evidence that the 
area served by the blockage was getting more blood. After the 
third year, even more blood flow was noted. In addition, my 
ischemia had disappeared.
    My cardiologist commented that, if you didn't know that I 
had heart disease, he could not tell from my electrocardiogram 
stress test. I feel confident that my disease is being cured, 
and that I will not require a catastrophic heart procedure. I 
am healthy and energetic. I walk 15 to 20 miles a week. I 
meditate for 1 hour 4 to 6 days each week, and I adhere to the 
Ornish diet.
    My wife and I are involved in our community. I do part-time 
consulting work. We travel, occasionally visit and enjoy our 
grandchildren, and enjoy our lifestyles.
    I would be remiss if I did not thank the many people who 
have helped save my life. Dr. Dean Ornish, who invented and 
developed this program, and weathered the rocky road to get 
this program widely accepted; the Heart Center at Palmetto 
Richland Memorial Hospital for making this program available in 
South Carolina; the medical directors, Drs. Don Sanders and Joe 
Collins; my cardiologist, Dr. Stephen Humphrey; the wonderful 
staff at the Heart Center: Susan Bevron, who coordinated the 
Ornish program when we entered it; Colleen Wracker, a nutrition 
specialist who patiently taught us how to eat Ornish and 
answered all of our many questions; Brent Schell, our stress 
management specialist, and Jean Humphrey, our group support 
volunteer--and last, but by no means least, my wife, Barbara 
Johnson, who determined long before I knew that this was the 
program that would save my life. She is my advocate, my cook, 
my motivator, my caregiver, and she is the mother of my 
children. I am truly blessed, and I am grateful for this 
program.
    I just want to share with you as a taxpayer that I feel 
very strongly that when the government invests in the health 
and well-being of its citizens, there should be specific 
outcomes. The program should have a favorable impact on the 
society that it serves. It should be cost-effective, and it 
should be measurable.
    I believe that the Dr. Dean Ornish Lifestyle Program meets 
these outcomes. I am healthier. There is evidence that my 
blockage is regressing, and I am avoiding a catastrophic bypass 
procedure cost of about $45,000 to me and my insurance carrier.
    I have some data from the South Carolina Budget and Control 
Board, Office of Research and Statistics. These figures show 
cardiac procedures, angioplasty and bypass, and their average 
costs for the period October 1997 through September 1998. There 
were 6,587 procedures at a cost of more than $228 million. If 
one-fourth of that population had early access to, and 
embraced, the Dean Ornish Heart Disease Reversal Program, there 
was a potential savings of more than $57 million in medical 
costs within South Carolina; and, 1,646 people might have 
avoided catastrophic invasive procedures.
    I would certainly urge this distinguished panel to support 
Medicare coverage of this program. I thank you for allowing me 
to participate. I will answer any of your questions.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED]56145.039
    
    [GRAPHIC] [TIFF OMITTED]56145.040
    
    [GRAPHIC] [TIFF OMITTED]56145.041
    
    [GRAPHIC] [TIFF OMITTED]56145.042
    
    Mr. Burton. Thank you, Mr. Johnson. Your wife must be an 
extraordinary woman, as well as a good cook.
    Mr. Ollie Johnson. Yes, she is.
    Mr. Burton. Mr. Sanford ought to be very proud of you as 
constituents, because you make a very strong case, and you are 
examples of what people ought to do to make sure their 
lifestyles are enhanced. So congratulations.
    Let me just ask you a couple of questions, and then I will 
yield to Mr. Sanford.
    What is your cholesterol level now?
    Mr. Ollie Johnson. 196 or 195.
    Mr. Burton. Is that right, below 200?
    Mr. Ollie Johnson. Oh, yes, it has been down to 170, but I 
had some tests last week and it was about 195 or 190, somewhere 
in there.
    Mr. Burton. Your LDL and HDL are at acceptable levels as 
well?
    Mr. Ollie Johnson. They are all in acceptable levels, yes.
    Mr. Burton. What were they before? Do you recall?
    Mr. Ollie Johnson. I don't know because I didn't pay too 
much attention to it until I got them, and when I first was 
checked, it was 3 or 4 months into the program; they had all 
just kind of gotten into compliance.
    Mr. Burton. What about your blood pressure? Is it pretty 
good?
    Mr. Ollie Johnson. Yes, my blood pressure--they have to 
sort of wake me up.
    Mr. Burton. 120 over 80 or----
    Mr. Ollie Johnson. Yes, it is usually somewhere at 120 over 
80, 78.
    Mr. Burton. But it was higher than that when you first 
started taking Tenormin, I guess?
    Mr. Ollie Johnson. Yes. Yes, it was higher than that. But I 
haven't had a problem in 3\1/2\ years.
    Mr. Burton. Did you take Zocor or any of the cholesterol-
controlling drugs at any time?
    Mr. Ollie Johnson. No. I took Procardia that dilutes your 
blood vessels. They took me off that medication and they 
reduced my Tenormin from 50 milligrams to 25 milligrams. Right 
now I am taking 25 milligrams of Tenormin and a baby aspirin, 
and I take a multiple vitamin.
    Mr. Burton. But the doctor really doesn't even think you 
need those; it is just a precaution?
    Mr. Ollie Johnson. That is correct. He doesn't really think 
I need that, but he won't take me off of it.
    Mr. Burton. OK, very good. Well, I can tell you right now 
that we are going to be having meetings with Dean Ornish and 
people at HCFA. I have already talked to some of the people 
over there about that. It sounds like to me that there is not a 
lot of opposition over at Health and Human Services and HCFA to 
the Ornish program. The problem, I guess, it looks like to me, 
is that we need some legislation to enable them to approve this 
program being paid for by the Medicare system. If we can get 
HCFA and Health and Human Services, FDA, and everybody onboard, 
then it seems to me we ought to be able to get the Congress to 
go along with that. We should be able to get that done. So 
maybe your wish and Dr. Ornish's wishes, will be realized 
before too long. Anyhow, we are going to be meeting with them 
in the not-too-distant future.
    I would like to ask Dr. Berman a couple of questions about 
the acupuncture. You said in your testimony that--I may be 
paraphrasing what you said--but, because it is not profitable, 
a lot of the companies are not interested in this, or a lot of 
the providers are not interested in this. Maybe you could 
clarify that. I might have----
    Dr. Berman. I think what I was saying was that a lot of 
these therapies or complementary alternative medicines are not 
patentable. So because there is no patent, there is no great 
incentive for a drug company to put the amount of money that it 
takes to go through the steps to have it. So, therefore, they 
don't really get evaluated and taken to that sort of stage from 
people's observations--yes, it seems to work anecdotally--all 
the way through to the clinical trials that we need.
    I was more talking about that research dollars are really 
needed, and it is not going to come from--a lot of our research 
is from the drug industry, and that is where a lot of the 
dollars come from.
    Mr. Burton. Do you think that some of the opposition to the 
procedures that you provide comes from pharmaceutical companies 
because there is no real profit incentive?
    Dr. Berman. We are back to that question again.
    Mr. Burton. Well, you know, I ask that question, and I 
asked it of Dean Ornish, and the reason I ask it is because it 
is very important that we get that out in the open. That is not 
something you can hide behind, because if agencies of the 
Federal Government are being controlled, in part even, by 
pharmaceutical companies, because they invest large amounts of 
moneys in research, and they are afraid their research dollars 
are going to go down the tube because somebody finds bark off a 
tree that is going to cure cancer, instead of their product, 
then if they have that kind of influence, it is unseemingly.
    I think in the process--and I am going to go off on a 
little tirade here--I think in the process of getting 
alternative therapies accepted, we may have to, as a 
government, figure out some way to protect pharmaceutical 
companies against making great investments in scientific 
research, and then have something come along that didn't cost 
anything that knocks their research out of the box, and there 
is maybe $2 or $3 billion that has gone down the tubes.
    I am sympathetic to the problem that they face. If they 
patent something, they go through all the research; they come 
up with a compound that works, and then somebody comes up with 
something that is homeopathic that works just as well, but 
doesn't cost anything. So they are out all that money. So I am 
sympathetic to that.
    But, at the same time, I think we need to know in the 
Congress if pharmaceutical companies, if medical facilities in 
this country are using their influence to keep a lid on 
alternative therapies, so that they can still make the almighty 
dollar.
    Dr. Berman. I think that does exist. I think we would have 
to say straight that there is a great profit motive, and it is 
not there for many of these therapies. So while some of them 
are now--quite a few of the big pharmaceutical companies are 
starting to look at this field, they are coming along with a 
big net to see where is the market, and beginning to start 
their own lines of vitamins and minerals, and have not yet gone 
the other way to say, let's put in the research dollars, 
because of these concerns: Where is that patent going to be, 
and their payout at the end of the line.
    Mr. Burton. Well, perhaps we can wade through that and 
figure out some way to be able to encourage them, so that they 
can make money and still get to the final conclusion we all 
want.
    Let me ask you a little bit about acupuncture, because I am 
not that familiar with it. How does it work on joints and pain? 
If you use acupuncture, for instance, if you have knee problems 
or tennis elbow or shoulder problems or back problems, does it 
give long-lasting relief or is it just a temporary thing, like 
aspirin or acetaminophen or something?
    Dr. Berman. What we have found is that it generally, in the 
beginning, the treatments are maybe--if somebody has a chronic 
problem--if it is an acute problem, often it lasts. But if it 
is a chronic disease, let's say, like somebody with 
osteoarthritis of the knees, and they have had this for many, 
many years. Initially, you may find that the treatments last 
for just a couple of days, and then as you go along, if this 
treatment is working for this particular patient, they tend to 
last longer and longer, and there is more of a carryover 
effect. From some of our studies, it has lasted sort of for 12 
weeks before we saw any decrease in the effects from the 
treatment.
    Mr. Burton. Does it ever provide a complete cure or is it 
just like some kind of pharmaceutical that would provide a cure 
for a short period of time, and you have to take it again?
    Dr. Berman. Well, in the traditional way of looking at it, 
they would say the cure might be that you come in once a season 
eventually, and it has to do with not just your local knee 
pain, but your general health. Whether or not it can--it really 
depends on which problem. I mean, I have seen it cure tennis 
elbow quite effectively and some problems of chronic headaches.
    But something where it is really--looking at 
osteoarthritis, part of the joint is gone, and they are waiting 
to have joint replacement, it is not going to regenerate that 
joint. There is some evidence that glucosamine and some of the 
other compounds might have some effect there, but for 
acupuncture you are not going to regenerate it, but you will 
decrease the inflammation around that joint. You will decrease 
the pain, and you will increase the quality of life, so that 
the person is really perhaps able to not have the surgery or 
avoid having the surgery.
    Mr. Burton. Very good.
    Mr. Sanford.
    Mr. Sanford. I guess I would ask this of my fellow South 
Carolinians. We grew up not only in the Sunbelt, but in the 
stroke belt as well. Growing up where we did, I have a 
particular love of fried chicken, country fried steak, fried 
okra. My hope that is, as you look at the Ornish program, a 
part of it is what you eat; a part of it what you do in terms 
of exercise, and a part of it, I suppose, is what you think 
with meditation, and maybe there are other elements in terms of 
herbs.
    How much of it is the nutrition part? Can I skip out on the 
nutrition part and still be OK, or, no, it is all three?
    Mr. Ollie Johnson. It is all of them. We asked that 
question. It is like we can only have one drink a day. I asked, 
could I save them up until Saturday? They said, no, you can't. 
[Laughter.]
    But the food part, we don't eat meat; we don't eat seafood. 
We go to a restaurant and we talk to the cook or we say, 
``Look, can you fix up the meal?'' They will say, ``We can fix 
you a vegetarian meal.'' But if they are going to put ``fat-
back'' into it, we have a problem there. So we actually just 
leave.
    Mr. Sanford. So is it equal, a third, a third, a third, or 
is it really more relying on what you eat than anything else?
    Mr. Ollie Johnson. No, sir. I don't know that they have an 
answer for that, because we never got one that is one-fourth 
exercise, one-fourth meditation, one-fourth diet, and one-
fourth group support. I don't believe they have any evidence to 
say which is the most influential. We have not at this point. 
So we do all of it. We do all of it, and it is working.
    Mr. Sanford. What would you say to folks that say--
detractors, in essence, of alternative medicine who say, wait a 
minute, the Federal Government can only fund so many things. 
This is not magic. I know that fried okra probably isn't the 
best thing in the world for me, but I grew up eating it; I love 
eating it.
    In other words, since it is not magic, since I know it is 
not good for me, therefore, you could have figured this out 
earlier. What shouldn't government involvement be reserved for 
the very end of things? In other words, what would you say to a 
detractor that said, only so many dollars; save it for the end 
because people, if they are really disciplined, could be doing 
this stuff without having government involved in a program of 
Dean Ornish or others?
    Mr. Ollie Johnson. Well, I think the evidence of it, good 
or bad, is the cost in South Carolina right now, $228 million, 
just last year alone. All of those people--I didn't have any 
figures on what their ages were, but I would suspect that they 
are maybe older people. I sort of crossed that bridge. I have a 
lot of friends who still eat Kentucky Fried Chicken, or ``KFC'' 
now--we don't say, ``fried'' anymore. [Laughter.]
    And we don't perceive it as being a hard thing. It is 
really very difficult to convince another person that this is a 
good way that is not so bad. Most of my friends do not eat 
Ornish, and they know I eat Ornish. We go to a restaurant, and 
I may end up eating a salad, but that is it. Every now and 
then, when they say, ``Your weight, you look pretty good,'' I 
say, ``Well, it is part of the program that I am in.'' They 
will ask me a few more questions. I know that they are eating 
better. They probably gave up the double hamburgers and stuff 
like that, and they are eating more turkey, because they see me 
every day and they believe that something is happening with 
that guy; he is a better person because I know he is 
meditating. He is a little bit better to get along with.
    So I don't criticize their lifestyle. I am willing to tell 
them about mine.
    Mr. Sanford. Right.
    Mr. Ollie Johnson. I have had that question, ``Well, I 
can't do that because I am enjoying this lifestyle,'' but we 
are both at the concert or the theater, you see.
    Mr. Sanford. I would ask the question, I suppose, to Mr. 
Berman, unless you want to throw in your thoughts. That is, how 
would you guard against quackery, though? In other words, if 
you open up government to doing a lot of other things, surely, 
there would be a lot of folks that maybe--AMA has pretty strict 
guidelines. How you have an AMA-like control over who does or 
doesn't do acupuncture or herbal remedy?
    Dr. Berman. There is a lot of efforts in that way. There is 
certification. You look at certification, regulation, 
licensing, education, experience, and there are the 
acupuncturists, the chiropractors, massage therapists, they do 
have national--and many of the States have their own 
regulations. So you would go look at that. I think that is very 
important.
    You could set up many things. You could set up looking at 
the adverse reactions of many of these therapies, so you could 
look at what goes on with them adversely. And you would also 
continue to do the research, so you could separate out what 
doesn't work and discard those, and then keep in the ones that 
do work.
    So I think there are many ways that we could really 
improve, both from a conventional as well as a complementary 
medicine side, to separate out the quackery.
    Mr. Sanford. Mr. Chairman, thank you.
    Mr. Burton. Thank you. I would just like to say, Mr. 
Sanford, that we had Dean Ornish in earlier, and, of course, I 
think you were in other committee meetings or something. I hope 
that you and some of the other members will take advantage of 
an invitation Dean Ornish made, and that was that he said he 
would be willing to come back from San Francisco to meet with a 
number of Congressmen to tell them about his specific program, 
and if you are interested, get you on it, because it has had 
substantial results.
    In addition to that, they have scientific research in his 
program that backs up, in Dean Ornish's case, what these people 
have said here today, that it does eliminate in many cases, but 
certainly reduces the necessity for heart surgery and bypass 
surgery and also angioplasty. They estimated that it would save 
$30,000 to $35,000 for each case. When you put a pencil to 
that, if we could get Health and Human Service, HCFA, and all 
the health agencies to incorporate this into Medicare, it would 
probably save billions of dollars for the Medicare program that 
could be well used elsewhere. It is one of the things that I 
know that you will want to work with us, and I will talk to you 
about that.
    Let me just thank you very much. I am going to have to find 
out, Mrs. Johnson, what you cook that tastes so good that 
doesn't have cholesterol in it. [Laughter.]
    Maybe I can get you to come to Indiana and teach me and my 
family. But, anyhow, I am just teasing you.
    Thank you very much for being here, and I am sorry you had 
to wait so long. We will take to heart what you said. We are 
going to meet with Dean Ornish. What you are requesting is 
going to be looked into very thoroughly and, hopefully, we will 
get some results on it. So thank you very much.
    Thank you, Dr. Berman. We are going to check into the 
acupuncture. I may be talking to you about acupuncture myself.
    Dr. Berman. OK.
    Mr. Burton. Why don't we have the next panel come forward? 
We will get started with the next panel.
    We are going to have a vote coming up here right now.
    The next panel is Dr. Kamerow, Dr. Holohan, and Dr. 
Mazzuchi.
    Dr. Kamerow, we talked earlier today. You know, Dr. 
Kamerow, I only wish the Army had as nice of uniforms as you 
guys. I was in the Army and our uniforms never could measure up 
to you or the Marines.
    Why don't we start with Dr. Kamerow, since we will just go 
from left to right? Did I mention everybody or did I leave 
someone out?
    Mr. Mazzuchi. Dr. Zimble is here with me, sir. He is the 
president of the Uniformed Services University of the Health 
Sciences.
    Mr. Burton. Oh, Doctor, well, I apologize for that. OK.
    Dr. Kamerow.

   STATEMENTS OF DOUGLAS KAMEROW, M.D., DIRECTOR, CENTER FOR 
HEALTH CARE TECHNOLOGY, AGENCY FOR HEALTH CARE POLICY RESEARCH, 
  DEPARTMENT OF HEALTH AND HUMAN SERVICES; THOMAS V. HOLOHAN, 
  M.D., CHIEF, PATIENT CARE SERVICES OFFICER, VETERANS HEALTH 
ADMINISTRATION; JOHN F. MAZZUCHI, DEPUTY ASSISTANT SECRETARY OF 
   DEFENSE FOR HEALTH AFFAIRS, CLINICAL AND PROGRAM POLICY, 
 DEPARTMENT OF DEFENSE; AND JIM ZIMBLE, M.D., PRESIDENT OF THE 
     UNIFORMED SERVICES UNIVERSITY FOR THE HEALTH SCIENCES

    Dr. Kamerow. Thank you, Mr. Chairman, members of the 
committee. I am Dr. Douglas Kamerow, testifying on behalf of 
the Department of Health and Human Services. Our Department, 
HHS, has a number of roles related to complementary and 
alternative medicine. NIH, the National Institutes of Health, 
facilitates research into new health therapies that may someday 
be options for the treatment of illnesses. FDA, the Food and 
Drug Administration, is responsible for approving new medical 
devices or drugs that are safe and effective in the treatment 
and prevention of disease.
    I work in another public health service agency, the Agency 
for Health Care Policy and Research, AHCPR. Unlike my 
colleagues on the panel here today, we at AHCPR neither deliver 
care nor regulate care. Our mission is to access the evidence 
for what works and what does not work in healthcare.
    We support and conduct research that improves the quality, 
the outcomes, and the appropriate use of healthcare services. 
We provide the scientific foundation that is necessary for 
informed healthcare decisions. We want those decisions, which 
are being made every day by patients, by clinicians, by 
purchasers, healthcare system leaders, and policymakers, to be 
based on solid evidence about what works, when it works, and 
for whom it works.
    The study of complementary and alternative medicine is 
squarely within AHCPR's mission. While we have done some work 
in this area, we have really just begun to look at it. Let me 
tell you a little, about 3 minutes' worth, of what it is that 
we have done and what we are doing.
    First, we are working to provide accurate statistics about 
the use of complementary and alternative medicine in the United 
States. One of our surveys, the Medical Expenditure Panel 
Survey, has collected information on persons who consult with 
complementary and alternative medicine providers. This is the 
largest available survey of persons who have used alternative 
care, and when we release results, they will provide the most 
accurate estimates yet about the use of complementary and 
alternative care providers.
    Second, we supported a number of early studies on the 
effectiveness and cost-effectiveness of alternative therapies 
for treatment of low back pain, including chiropractic, 
acupuncture, and spinal manipulation. We have also evaluated 
patient satisfaction with their care compared to patients 
treated with conventional therapies.
    Third, we are working closely with our colleagues at NIH, 
at the National Center for Complementary and Alternative 
Medicine, to co-sponsor two studies on acupuncture: one looking 
at the effectiveness of acupuncture on back pain and, second, 
in treating depression during pregnancy.
    Fourth and finally, we are helping to document and 
synthesize the scientific and clinical evidence that supports 
complementary and alternative medicine. In 1997, we established 
12 evidence-based practice centers around North America to 
systematically analyze important clinical topics. Let me give 
you one example.
    I am a family physician. A patient recently asked me about 
using garlic preparations to help reduce his blood pressure and 
his cholesterol. I was frustrated because there really was 
nowhere I could turn for reliable information about this 
substance, which is commonly used in this country and abroad. I 
am pleased to say that now we at AHCPR have commissioned what 
we call an evidence report on garlic. One of our EPCs will 
scour the world's literature about it, systematically review 
that research, and authoritatively tell us what is known about 
what works and what doesn't work about garlic.
    In addition to this report, we are also reviewing other 
complementary and alternative medicine topics for future 
reports, and we are discussing further collaboration with our 
colleagues at NIH.
    Now AHCPR is a small agency, and therefore our investment 
in this area only scratches the surface. What is needed to 
create the scientific foundation for CAM, for complementary and 
alternative medicine? We need to develop better, more reliable 
methods for studying and evaluating these therapies, and much 
more research is needed on their effectiveness and outcomes. We 
need to increase the available data on their use, and we need 
to know how patients feel about the care they receive and why.
    We at AHCPR believe that the best evaluation of medical 
care is one that measures the impact on the outcomes that 
patients care about and what they care about most. The bottom 
line is that all of us--doctors, other health professionals, 
patients, health systems, and payers--need evidence. We need to 
know what works and for
whom. It is our job at AHCPR to provide this evidence. These 
efforts will allow us to identify complementary and alternative 
therapies that improve health, improve health care, and enhance 
the quality of life of our patients.
    Thank you.
    [The prepared statement of Dr. Kamerow follows:]

    [GRAPHIC] [TIFF OMITTED]56145.043
    
    [GRAPHIC] [TIFF OMITTED]56145.044
    
    [GRAPHIC] [TIFF OMITTED]56145.045
    
    [GRAPHIC] [TIFF OMITTED]56145.046
    
    [GRAPHIC] [TIFF OMITTED]56145.047
    
    [GRAPHIC] [TIFF OMITTED]56145.048
    
    Mr. Burton. Thank you, Doctor.
    We have 5 minutes before this vote expires. So I apologize 
to the panelists. I mean, how would you like to live this life 
where you run back and forth? The only good thing about it----
    Dr. Kamerow. Exercise.
    Mr. Burton [continuing]. Is exercise, yes. We will be back 
in 5 or 10 minutes.
    [Recess.]
    Mr. Burton. We will reconvene.
    Thank you, Dr. Kamerow, for your testimony.
    We will hear from Dr. Mazzuchi now.
    Mr. Mazzuchi. Yes, thank you, Mr. Chairman. I will just 
highlight some pieces of my testimony for you, in the interest 
of time.
    Mr. Burton. Thank you, Doctor.
    Mr. Mazzuchi. One of the questions that you had asked that 
I cover in my testimony, and I have covered it in some detail 
in the written testimony, deals with a chiropractic 
demonstration program that the Department of Defense is 
operating in response to the Defense Authorization Act of 1995. 
We now have 13 sites. We use two different models: a patient 
choice model and a managed care model. In addition to those 13 
sites, we have 3 comparison-sites where we also ask similar 
questions to patients who are undergoing care, but from 
traditional providers, and not the chiropractic providers. The 
data-gathering phase of that will continue through September 
30, 1999, and then we will report to Congress, which we are 
required to do by the act, which requires us to report on both 
the feasibility and the advisability of adopting the 
chiropractic care into the military health system.
    We don't have enough data for me to give you the answer to 
that yet, but I can say, from the information that we have 
gathered, that the patients who are receiving chiropractic care 
are quite pleased with that care.
    In my opinion, one of the most beneficial aspects of 
complementary and alternative medicine is that these therapies 
tend to focus on self-care and stress a balance in living. We 
in the DOD continue to initiate and implement programs that 
recognize that personal health behaviors are extremely 
important in reducing the incidence and severity of disease, 
injury, and disability.
    The first step in any comprehensive healthcare plan to 
promote a healthy lifestyle is to evaluate current health 
status. The Health Enrollment Evaluation Assessment Review 
[HEAR], is an age-appropriate tool that surveys the general 
health status of each of our beneficiaries. The HEAR gathers 
information on current health status, family medical history, 
currency of immunizations, prevention screenings, mental 
health, use of alcohol and drugs, et cetera, and has become a 
very important instrument to us as we look at lifestyle, so 
that we can initiate prevention programs that meet the needs of 
our population both individually and our population as a whole.
    Let me address the fact that you asked about training of 
our DOD providers. Overall, there are many elements of CAM 
offered in DOD facilities throughout our Department. Our 
physicians have been trained in acupuncture techniques. They 
have been appropriately credentialed and now treat patients 
with acupuncture in DOD facilities.
    For example, selected providers at both Walter Reed Army 
Medical Center and Andrews Air Force Base, both here in 
Washington, at the Family Practice Clinic, treat patients who 
have chronic pain with acupuncture.
    Another example: a radiation oncologist assigned to Edwards 
Air Force Base conducts an acupuncture practice every morning 
in his practice and has accommodated about 1,200 visits for the 
treatment of pain, smoking cessation, and obesity.
    Many of our hospitals and clinics offer stress management 
programs that include relaxation training, visualization, 
breathing techniques, exercise information, and cognitive 
therapies. Our psychology clinics within the Department offer 
biofeedback and other behavioral modification services. Some 
mental health professionals and other staff use meditation 
techniques with our patients. T'ai Chi, for instance, is used 
by some of our facilities as a routine for relaxation therapy.
    Many therapies considered to be complementary or 
alternative have not been adopted as mainstream medicine 
because of the current lack of evidence for their scientific 
support for their efficacy and safety. We are held accountable 
to a particular standard for the services we cover outside of 
our medical treatment facilities.
    And just so that you understand, we have a military health 
system that involves not only the MTFs, or the medical 
treatment facilities, that we ourselves run and operate, but we 
also have a managed care program as well as the standard 
CHAMPUS program, which is a piece of that program, that offers 
care outside of our facilities.
    So what we can cover on the outside is governed by a 
standard that requires us to show the cost-effectiveness and 
scientific efficacy and safety of those products. Inside the 
house, we do have our physician community who are trained in 
many CAM techniques. They do actually provide those techniques 
within our healthcare system, but we do not pay for them 
outside of our system.
    To uphold our accountability, we have regulations and 
program policies that restrict covered benefits. However, the 
DOD will follow very carefully the research done through 
institutions such as the Office of Alternative Medicine within 
the National Institutes of Health, the Uniformed Services 
University of the Health Sciences, and programs of other 
medical schools, such as the one we heard about at the 
University of Maryland's Complementary Medicine Center, for 
answers to the questions that CAM therapies pose to us.
    Many of our beneficiaries are interested in complementary 
and alternative medicine, and our providers realize that within 
each person there is the natural recuperative power that is the 
key to all healing, and that taking charge of one's own health 
and well-being, both physically, mentally, emotionally, and 
spiritually, is within the grasp of each of us.
    Moreover, the Department does not restrict the practice of 
providers who are knowledgeable, willing, and able to provide 
alternative medicine therapies to their patients. The spectrum 
of CAM, however, is broad, involving many things, and the truth 
is that there is no one single definition that can clearly 
define what is alternative medicine. Moreover, the line between 
what is alternative medicine and mainstream therapy is not 
consistently clear in the minds of patients and providers 
alike.
    We remain a society that is built upon science and depended 
upon science to solve many of the problems that we, as well as 
our future generations, will be facing. As therapies which are 
currently considered complementary or alternative are tested 
and shown to be safe, efficacious, and cost-effective, they 
will be integrated into the DOD health system.
    Dr. Zimble is with me here today. He is the president of 
the Uniformed Services University and is here to talk about two 
particular aspects that you asked in your program, mainly, 
medical school training, since he operates our military medical 
school, as well as the Dean Ornish Demonstration Project, which 
funds were just transferred this week, so we can move on with 
that--if Dr. Zimble would like to do that.
    Dr. Zimble. Mr. Chairman, I want to thank you very much for 
allowing me to be a strap-hanger with Dr. Mazzuchi. I have 
learned a great deal here today about the sense of this 
committee and, also, some of the great contributions that are 
being toward the integration more and more into mainstream 
medicine.
    We have started at the Armed Services University interest 
in CAM in 1994, when we began seminars for the complementary 
and alternative medicine. We have had about 64 seminars since 
that time in 1994.
    Also, in 1996, we had what I consider to be a really good 
beginning in getting involvement of other medical schools and 
schools of nursing into an interest in CAM. We held a 3-day 
Consensus Conference with representation from about 33 
different institutions, looking at various aspects of all types 
of alternative/complementary medicine, including workshops by 
many of the practitioners.
    Now we are beginning an elective 4th-year curriculum to 
teach complementary medicine and then alternative medicine. We 
have about 13 research projects, protocols, currently underway 
within our school of basic sciences and clinical sciences that 
deal with various aspects of complementary medicine. Now we 
want to do more of this, and, as I listen to the Ornish that is 
described, I have a great deal of difficulty in accepting this 
as an alternative medicine. I think this is mainstream medicine 
that is currently underfunded and under-recognized.
    As the evidence accrues, we need to learn how to integrate 
that into the practice of medicine. We try to teach that to our 
students. By the way, one out of every five physicians in on 
active duty today is a graduate of your Uniformed Services 
University. So we are a growing enterprise, and we are part of 
the academic health center of the military health system.
    I am very pleased that the first Director of the Office of 
Alternative Medicine, Dr. Wayne Jonus, is now a member of our 
facility. He is a lieutenant colonel, family medicine physician 
in our Department of Family Medicine. I was very pleased when 
Mr. Waxman
quoted him from his editorial in the November 11th Journal of 
the American Medical Association.
    I have a full statement that is included in the written 
report to you, and I stand by to answer any questions you might 
have.
    [The prepared statement of Drs. Mazzuchi and Zimble 
follows:]

[GRAPHIC] [TIFF OMITTED]56145.049

[GRAPHIC] [TIFF OMITTED]56145.050

[GRAPHIC] [TIFF OMITTED]56145.051

[GRAPHIC] [TIFF OMITTED]56145.052

[GRAPHIC] [TIFF OMITTED]56145.053

[GRAPHIC] [TIFF OMITTED]56145.054

[GRAPHIC] [TIFF OMITTED]56145.055

[GRAPHIC] [TIFF OMITTED]56145.056

[GRAPHIC] [TIFF OMITTED]56145.057

[GRAPHIC] [TIFF OMITTED]56145.058

    Mr. Burton. Thank you. We will get back to questions in 
just a moment.
    Dr. Holohan.
    Dr. Holohan. Thank you, Mr. Chairman. I am glad to be 
sitting next to the president of USUHS, which has a superb 
faculty, I am told, as well.
    First, permit me to note that Dr. Kizer, the Under 
Secretary for Health, yesterday sent letters to the committee 
Chair and ranking member in which he emphasized some points 
that we made in our written testimony, and complimented the 
committee for addressing this topic. A conflict in his schedule 
prevents him from being present to testify today.
    Public interest in alternative medical practices is 
increasing, and there are likely many reasons for this, 
including dissatisfaction with limitations of conventional 
medicine, desire for treatment directed toward the whole 
person, distrust of drugs and side effects, and some 
understandable frustration in search for a cure on the part of 
patients afflicted with chronic or serious disorders.
    Conventional medicine's interest is evidenced by the fact 
that an entire recent issue of the Journal of the American 
Medical Association was devoted to this topic. Of note, VA 
participated in one of the trials that was reported in that 
issue.
    Alternative medicine is a very nonspecific term that has 
been used to describe a heterogeneous group of practices. While 
their underlying philosophies and the manner in which their 
agents and techniques are employed diverge from mainstream 
medical principles and practices, that separation is not 
distinct and absolute, as we shall later discuss and as has 
been mentioned several times by previous witnesses.
    VA recently awarded a contract to evaluate alternative 
practices as they might apply to our system of healthcare in 
VA. At present, that report hasn't been completed, but we do, 
however, have some preliminary survey data regarding the state 
of alternative practices in VA facilities.
    While knowledge and even awareness of alternative practices 
varied widely among providers and facilities, most of the 131 
facilities surveyed provide some such treatments. These 
practices usually reflected the presence of a practitioner or 
practitioner advocates and managerial willingness to accept the 
implementation of those programs. Most of the facility 
management teams were reported as pragmatically oriented and 
described as having no biases for or against alternative 
treatments.
    The main concerns VA personnel expressed related to the 
highly variable training and credentialing of practitioners, 
the lack of sound scientific evidence supporting the use of 
many alternative therapies, and uneasiness about the budgetary 
impact of alternative practice in an environment of constrained 
resources.
    We note that many practices often considered as alternative 
have been or are also used by conventional medicine. For 
example, physical and manual treatment significantly overlap 
with modalities that are widely used in the current practice of 
physical medicine and rehabilitation. Many nutritional therapy 
models have counterparts in allopathic medicine, such as the 
use of hyperalimentation as an adjunct to conventional cancer 
treatment.
    The mainstream medical literature contains numerous studies 
of vitamin supplementation, the use of zinc and antioxidants, 
among many others. Many drugs that are used by conventional 
practitioners are, in fact, botanical preparations which have 
been evaluated in clinical trials and approved for marketing by 
FDA. These include vincristine from the periwinkle plant, 
digitalis from foxglove, and taxol, which was originally 
extracted from the Pacific yew tree bark.
    Moreover, mind/body interaction is not a phenomenon that is 
only recognized by alternative practitioners, as there is, in 
fact, a long history in medicine of appreciation of those 
mutual effects. A significant body of mainstream research has 
provided data that indicate the prognosis for coronary disease 
patients with depression is worse than for those without; that 
breast cancer patients who attended a support group had 
measurably better outcomes than those who did not, and that 
single male cancer patients had poorer prognoses than married 
patients.
    Many similar findings are published, and currently, in VA 
we are developing a formal systemwide strategy to fully 
integrate mental health and medical services throughout our 
system of care, based upon our belief that all diseases or 
disorders exist within an individual who is the unit of the 
care.
    At the same time, one cannot ignore alternative or 
unconventional care that may be extreme. There are a number of 
therapies whose advocates have proposed unreasonably optimistic 
claims and whose treatments have been ineffective and often 
harmful. Our written testimony provided specific examples of a 
number of such regimens.
    Indeed, in the early 1980's, a committee chaired by the 
late Congressman Claude Pepper published a comprehensive, 
sobering, yet remarkable, report on the wide variety of 
ineffective treatments being sold to the public. We do not mean 
by imply that all unconventional treatments are ipso facto 
suspect. The critical point to be made is that the advocate of 
any treatment, conventional or unconventional, allopathic or 
homeopathic, surgical or psychological, has an ethical and 
moral obligation to provide high-quality evidence that 
satisfactorily demonstrates the treatment is effective, and 
that the benefit is clearly proportionate to the risk. This is 
true for conventional treatment, and it is true for alternative 
practices.
    Claims that assert that scientific research standards are 
inappropriate or irrelevant to alternative practices are wrong. 
Science is not a belief system, but merely a disciplined method 
of investigation that enables one to test the hypothesis, and 
its applicability is virtually universal, we feel.
    The scientific method is the only instrument that permits a 
mathematically sound statement of the probability that a 
particular cause will result in a specific effect. A casual and 
an unsystemic linkage of cause and effect is too often 
erroneous, and for those reasons, prudent clinicians are loathe 
to accept anecdotal evidence, a few cases, or subjective 
judgments as proof of efficacy.
    VA believes we have a serious responsibility to demand 
evidence of benefit and safety for treatments we provide to 
veteran patients, and we have invested considerable resources 
to that end. We also believe that opinion or beliefs do not 
constitute scientific evidence and that anecdotes or small 
series studies represent the weakest forms of evidence and only 
serve to provide a hypothesis that can be tested in a well-
designed trial.
    While such positions are not in accord with the opinions of 
some in both the conventional and alternative medical fields, 
they are ratified by how most of us, tacitly or overtly, rely 
on the scientific method in our daily lives. When we step into 
an airplane, we are aware of our dependence upon the research 
and experimentation underlying the engineer's theories and upon 
the repeated testing of materials and design of the airframe, 
engines, and controls. We expect the Federal Aviation 
Administration to provide serious oversight of aircraft 
manufacture, and that design and construction will rely in the 
application of scientific investigation. We also expect that 
production will be accomplished by technical experts qualified 
by training and experience, and certified as competent by 
reliable and responsible authorities.
    It is dangerous to assume that so-called natural or 
nonpharmaceutical products are by nature safe. In our written 
testimony, we noted the recent recall of a dietary supplement, 
gamma butyrolactone, or GBL, which has caused comas, seizures, 
cardiac and respiratory arrest, and death. Undoubtedly, most 
consumers made ill or killed by GBL assumed its production and 
sale implied at least some research demonstrating safety, if 
not effectiveness. Sadly, they were mistaken.
    At present, there is a paucity of rigorous, reliable, and 
valid clinical trial data supporting many alternative 
interventions. Indeed, that was identified as a major concern 
of VA personnel in our contractors' survey. We believe that 
evidence is critical in our determination as to the role 
alternative medicine may play in the care of our patients. To 
that end, our research and development program will continue to 
fund scientifically meritorious investigator-initiated research 
related to alternative practice at all levels.
    Inconsistent alternative provider credentialing, licensing, 
and regulation pose serious problems in the utilization of 
those practitioners and techniques. And, Mr. Chairman, you 
asked a question about this a minute ago of Dr. Berman. 
Acupuncturists are licensed in 35 States; massage therapists in 
27; naturopaths in 4, and homeopaths in 14 States.
    I did some surfing of the internet on naturopathy and found 
an internet site that provided naturopathy information--
actually, two sites--that made a statement that, ``Certified 
naturopaths may complete a 4-year program of study or they may 
be someone with nothing more than a diploma from a diploma mill 
or a correspondence school.''
    VA has set high standards for practitioner education, 
credentialing, and certification. All newly hired VA physicians 
must be licensed and board-certified. Advanced practice nurses 
must possess licensure, national certification, and a graduate 
degree; and registered nurses, licensure and a bachelor's 
degree. We believe that all providers in VA should meet 
appropriate comparable standards, irrespective of their 
practice focus.
    In closing, VA is investigating alternative medicine 
practices and is presently gathering data to address the 
interest of our clinicians and the extent of alternative 
medicine use in our system. We expect to be reviewing 
information developed from the literature base for alternative 
practices, the appropriateness of employment for our 
population, and information on cost and cost-effectiveness.
    VA expects that any treatment offered to veteran patients, 
whether conventional or alternative, and provided outside the 
context of a clinical trial, will be chosen on the basis of 
objective evidence sufficient to permit the conclusion that it 
is both safe and effective.
    Thank you.
    [The prepared statement of Dr. Holohan follows:]

    [GRAPHIC] [TIFF OMITTED]56145.059
    
    [GRAPHIC] [TIFF OMITTED]56145.060
    
    [GRAPHIC] [TIFF OMITTED]56145.061
    
    [GRAPHIC] [TIFF OMITTED]56145.062
    
    [GRAPHIC] [TIFF OMITTED]56145.063
    
    [GRAPHIC] [TIFF OMITTED]56145.064
    
    [GRAPHIC] [TIFF OMITTED]56145.065
    
    [GRAPHIC] [TIFF OMITTED]56145.066
    
    [GRAPHIC] [TIFF OMITTED]56145.067
    
    Mr. Burton. Thank you, Dr. Holohan.
    Dr. Kamerow, why is it that, if there is a program like Dr. 
Ornish's that has substantial evidence that shows that it is 
effective in reducing conventional therapies, such as open 
heart surgery and--what is the balloon thing again--
angioplasty, why is it that there is not some mechanism for the 
Department of Health and Human Services to contact Congress and 
suggest to us that we take legislative action that will enable 
you to put that under the Medicare program?
    I guess the point I am trying to make is this: We are 
finding out today that most of the people here agree that that 
program has merit, is effective, and is going to save a lot of 
money in the area of reduced heart surgeries and angioplasties. 
If that is the case, we are finding out about it, and we are 
going to be getting together with you and others at the 
Department of HHS, along with the doctor, to figure out some 
way to provide the passage of legislation, so that you can put 
that into the Medicare program.
    My question is, why is it, when something like this 
happens, do you have to wait for Congress to come to you and 
take the initiative? Wouldn't it be better, if you know that 
there is something that works, for you to tell people in 
Congress about it, so that we could start the wheels rolling 
that will enable you to incorporate it into your procedures?
    Dr. Kamerow. I think that is a good idea, Mr. Chairman. I 
will certainly check with the Health Care Financing 
Administration and suggest that to them.
    I think that in this particular case it is only really 
recently--and I mean quite recently, such as the last several 
months--that there have been good randomized control studies in 
fairly large populations of the kinds of interventions that Dr. 
Ornish is talking about. It is a very intensive regimen----
    Mr. Burton. I understand.
    Dr. Kamerow [continuing]. And it has been done successfully 
in small numbers of people. My understanding is that the people 
at HCFA are looking at it closely and would be glad to talk to 
you about it.
    Mr. Burton. I understand it takes a lot of discipline.
    I wish you would suggest to them--I know that the agencies 
are not supposed to lobby Members of Congress. However, I can 
tell you, as one Member of Congress and chairman of one 
committee, that I would not consider it lobbying if, for 
instance, the Department of HHS came to us and said, ``Here is 
a procedure that will help people, reduce medical costs, and 
one that we could use in the Medicare program with great 
efficiency and effectiveness, if Congress would allow us to do 
it, but right now we are prohibited from doing it because there 
is a legislative prohibition against it.''
    Dr. Kamerow. I will be glad to take that message----
    Mr. Burton. And, really, I don't think anybody would 
consider that lobbying--it is that you gave us some ideas or 
suggestions--and I certainly wouldn't. I wish you would tell 
them that over there, because there may be other things that we 
don't know about besides this program that might be very 
advantageous to the Medicare program, to HHS, and to the 
populace in general.
    Dr. Kamerow. I would he happy to do that.
    Mr. Burton. Let me ask you just a couple more questions. I 
know that you are pinch-hitting for the Secretary, since there 
is no one on her staff that covers alternative medicine. Do you 
think that it would be helpful for HHS to have an Associate 
Secretary for Complementary or Alternative Medicine?
    Dr. Kamerow. I think that the Department is working to 
coordinate these issues at multiple levels, and that they would 
be glad to consider those kinds of suggestions from you. As I 
said in the testimony, there certainly are a number of 
activities going on throughout the Department and a number of 
agencies. I think they are working together to try to 
coordinate them. The Director of NIH, Dr. Varmus, does have a 
committee that he convenes across the Public Health Service, 
with representatives from the different agencies, to talk about 
research in complementary and alternative medicine. So I think 
there are some mechanisms that are in place now to coordinate 
the different activities.
    Mr. Burton. I guess the question I am posing is--I am not 
talking about a person who is an advocate for alternative 
therapy, but someone who would constantly peruse the medical 
journals and check to see if there are new alternative ways 
that are coming online that have been proven effective that 
they could point out to the people who are in charge of HHS, 
who will be making decisions on whether or not to move into 
different areas or new areas that might help the population.
    So you might throw that out to them, as well as some idea 
on how to keep Congress informed, as well as the upper echelons 
of HHS, on new therapies that may be coming along of an 
alternative nature.
    Dr. Kamerow. I would be happy to do that.
    Mr. Burton. In 1997, the NIH consensus panel, their 
consensus was that acupuncture was effective in the treatment 
of post-operative and chemotherapy nausea. Why is it that they 
are still not allowing acupuncture to be utilized through the 
Medicare program?
    Dr. Kamerow. My understanding about acupuncture and 
Medicare is that there is a national noncoverage statement and 
policy, and that, in light of the recent Consensus Conference 
and other evidence, that they are looking at this, and when 
they feel that the evidence is strong enough, that they will 
change that.
    It is important to point out that evidence from one source, 
such as an NIH Consensus Conference, may not be all that is 
necessary. It may be the opinion of some experts, and HCFA 
often requires that there be the kinds of randomized control 
trials that Dr. Ornish talked about before they will cover 
interventions. But that is one kind of evidence, and they 
certainly are taking that under consideration.
    Mr. Burton. Well, I have some personal experience. My wife 
had chemotherapy. My mother and father, who both died last 
September and October, had chemotherapy. And I know the kinds 
of problems that you have when you take that after a period of 
time. You regurgitate. You have all kinds of complications. It 
just seems to me if acupuncture has been helpful--even though 
they took medication, they still had these kinds of problems. 
If acupuncture relieves those kinds of symptoms, and it has 
been proven to do so, as we believe it has, it seems to me that 
that ought to be something that is seriously considered. You 
might want to put some limitations on acupuncture until other 
things are proven, but if it is helping in those areas, I wish 
that you would at least talk to them about that and look into 
that.
    Dr. Kamerow. I certainly will.
    Mr. Burton. How much money has VA invested in alternative 
medicine research?
    Dr. Holohan. I will pass that question over to our 
representative from the Office of Research, Dr. Burris.
    Mr. Burton. Doctor, why don't you come over to the 
microphone, so that I can hear you?
    Do you know how much they have spent?
    Dr. Burris. In fiscal year 1998, there were over 100 
individual research products in the area of complementary and 
alternative medicine being conducted in VA facilities. They 
were funded at approximately $5.5 million by VA, and an 
additional over $9 million from all other sources of funding 
combined, other Federal agencies as well as nonprofit 
organizations.
    Mr. Burton. So the total for VA as well as other Federal 
agencies was about $14, $15 million?
    Dr. Burris. In fiscal year 1998, that is correct.
    Mr. Burton. What percentage of that would be the total 
expenditure for conventional healthcare therapies?
    Dr. Burris. It would be a little less than 2 percent of the 
VA research budget for that fiscal year.
    Mr. Burton. As well as the other agencies you were talking 
about?
    Dr. Burris. No, I don't know what the figure would be of 
the other agencies.
    Mr. Burton. OK. But it is about 2 percent?
    Dr. Burris. Of the VA budget.
    Mr. Burton. In the area of cancer research, didn't you say 
that it was about 1 percent, that we are putting $2.3 billion 
into conventional cancer research and about $20 million into 
alternative therapies? So we are looking at somewhere between 1 
and 2 percent for alternative therapies.
    Is there any suggestion that VA or the Department of 
Defense or at HHS that we increase that percentage? Because 
some of these alternatives have been very, very effective. Dr. 
Mazzuchi?
    Mr. Mazzuchi. Well, there is a way of doing that, I think, 
without necessarily increasing the percentage. I wish I had 
better data for you, and I can get it for you. As part of the 
DOD's breast cancer research program, where the Congress has 
appropriated considerable amount of money to the Department for 
breast cancer research, some of those moneys are set aside for 
IDEA grants. I have forgotten what the IDEA acronym stands for, 
but, basically, it is research moneys given to researchers who 
do not have a proven track record in the business; they have 
not been in the business of cancer research, or who are looking 
at alternative therapies or new techniques. It is basically 
meant to stimulate research in areas from people who have not 
been in this area before and with ideas that are different from 
some of the more mainstream research ideas. I think that is a 
good way to go with alternative medical research, is that you 
open the door, not necessarily setting out a certain 
percentage, but you certainly encourage, as part of your 
overall grant, that some areas would be in places that were 
not----
    Mr. Burton. See, the concern I have is that to encourage is 
kind of a nebulous thing. If there are specific funds that are 
allocated for a project or an area, that money is going to be 
used for that specific area. If you do it any other way, then 
the money, in all probability, won't get to that.
    Mr. Mazzuchi. Our IDEA grants actually are a certain amount 
of money that is set aside. It is not really percentage, but I 
guess you could make it a percentage of the money.
    Mr. Burton. OK, what amount of money is set aside for that?
    Mr. Mazzuchi. I have to get the number for you. It is quite 
large. It is about a quarter of the research grants are done 
with IDEA grants. Now all the IDEA grants aren't alternative 
medicine. They are simply with people who have not done this 
kind of research in the main or are trying to attract both new 
scientists and new methodologies, which some of that would go 
into.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]56145.068
    
    Mr. Burton. Well, we know that in the area of HHS and 
cancer it was about 1 percent, and we know now that at VA it is 
about 2 percent. So that is a very, very small percentage of 
the overall spending. There is a growing sense in the country 
among people who are veterans, at the VA, people in the Defense 
Department, and the general population that alternative 
therapies are something that they really want to take a hard 
look at before they go with conventional therapies. So it seems 
to me that there ought to be more money spent in that area 
instead of just a mere pittance; 1 or 2 percent is not going to 
cut it.
    Yes, sir?
    Dr. Zimble. Mr. Burton, I just wanted to mention, I 
overlooked one fairly important fact, and that is that, in the 
1999 appropriation to the Department of Defense, $2.5 million 
was appropriated to our university to support the Ornish 
program. We will be bringing that to Walter Reed Army Medical 
Center, which will be doing some work specifically for that.
    Mr. Burton. So you are very supportive of that program?
    Dr. Zimble. Oh, yes, sir.
    Mr. Burton. What I would like for you to do, if you would, 
for me--because we are going to be meeting with the people at 
the HHS about that program, and we are going to have Dr. Ornish 
come back from San Francisco to meet with us, to try to figure 
out some way to legislatively get that program online, so we 
can incorporate it into the Medicare program. If you are 
sympathetic toward that end with the VA and the Department of 
Defense, if you could send me a letter to that effect, I would 
sure like to have that, just saying that you think it has 
worked; it has been effective.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]56145.069
    
    [GRAPHIC] [TIFF OMITTED]56145.070
    
    Mr. Burton. Let me ask you one more question regarding the 
veterans. Is saw palmetto available to veterans? We understand 
that that has had a positive impact on prostate problems.
    Dr. Holohan. Frankly, Mr. Chairman, I don't know.
    Mr. Burton. Well, could somebody maybe check into that and 
let me know? Because that is one thing that there is some 
evidence that has been helpful in a number of prostate problems 
in men.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]56145.071
    
    Mr. Burton. You mentioned that the Defense Department will 
begin integrating alternative therapies when they have been 
tested and shown to be safe and cost-effective. Since 
acupuncture has been shown by an NIH consensus panel to be 
effective for post-operative and chemotherapy nausea, as well 
as dental pain, when will the Defense Department begin making 
acupuncture in certain cases available systemwide?
    Mr. Mazzuchi. We have begun the process to do that. Based 
on the Consensus Conference at NIH, we communicated that 
information to the office in Aurora, which is the benefits 
office, which tends to look at new technologies and does 
technology assessment with us. That office is looking at the 
literature right now, and is looking at perhaps doing some 
clinical trials to determine whether this should be a covered 
benefit. It is a process that takes between 1 and 2 years. We 
are about 8 or 9 months into that process now. My expectation 
is that, based on the literature we have seen so far, it looks 
fairly favorable that at least in some circumstances it would 
be covered. Now, as I have said, we do cover it inside the 
MTFs, our medical treatment facilities, like Walter Reed, and 
so forth. But in terms of being paid for, if you receive your 
care external to our military hospitals, that we still do not 
do, but that is where we are heading.
    Mr. Burton. Let me just make one more comment, and then we 
will let you folks go. I am sorry you had to wait all day. I 
really appreciate your patience.
    One of the things that I believe Dr. Ornish mentioned was 
that they had a very difficult time--I think it was Dr. 
Ornish--they had a very difficult time getting the funds to get 
the body of evidence that was necessary to show that the 
program was effective. He said he had to go to private 
foundations to get the money, which was very difficult. He 
could not get any from the Federal Government, even though we 
now know, in retrospect, that the program does work and it does 
have real benefits.
    Are any of the funds that you are allocated being used to 
look into these alternative therapies, so that people like Dr. 
Ornish can get the results that you require, so that they can 
be incorporated into your programs? Do you see what I am 
saying? I mean, if a very small percentage is dedicated for 
alternative therapy research, and somebody like Dr. Ornish 
comes up with a new procedure that is going to be very 
effective and save money and help save lives, and everything 
else, how can we allocate more of our resources so that they 
can get that kind of testing result finalized, so that you can 
have it for your review, and, ultimately, for getting the 
procedure into your practices and your policies? Did I make 
myself clear? Maybe I didn't.
    Dr. Zimble. At the Uniformed Services University, we work 
with a statutorily created 501(3)(c) foundation, the Henry M. 
Jackson Foundation for the Advancement of Military Medicine.
    Mr. Burton. Who puts the money into that? Is that a 
government funded----
    Dr. Zimble. That can come through government. It comes from 
both the private sector and can come from the government. The 
$2.5 million I mentioned to you previously will go from me to 
the foundation. The foundation will give some of that to the 
Walter Reed Army Medical Center. Some of that will go to Dr. 
Ornish for his preventive medicine research.
    Mr. Burton. I am not just talking about Dr. Ornish. I am 
talking about the other----
    Dr. Zimble. Right, but we can use that--that paradigm can 
be used for other methodologies.
    Mr. Burton. OK. So the Department of Defense, even though 
the funds are not high----
    Dr. Zimble. Right.
    Mr. Burton [continuing]. It is a very small amount--you do 
have a way of doing that. How about NIH and HHS?
    Dr. Kamerow. HHS has a number of mechanisms for either new 
investigators or small grants for novel ideas, sometimes more 
off-the-wall ideas, that they can use. I know that AHCPR, we 
have a small grants program for just those kinds of pilot 
programs or early research, where people can apply if they 
don't have the credentials that Dr. Ornish was talking about 
before to get funding for these kinds of projects.
    Mr. Burton. How do they make the judgment on who gets those 
grants?
    Dr. Kamerow. They are reviewed in study sections, which is 
typical.
    Mr. Burton. By whom?
    Dr. Kamerow. By peers. Peer review.
    Mr. Burton. Peer review, doctors. Are any of those doctors 
on any boards of any pharmaceutical companies, or have they 
ever been employees of any pharmaceutical companies?
    Dr. Kamerow. I believe that is a pretty----
    Mr. Burton. Broad question?
    Dr. Kamerow [continuing]. Pretty broad question. I am sure 
somewhere there is, but they are generally university and other 
researchers.
    Mr. Burton. Well, I think you know why I asked that 
question. There is a concern that, if an alternative therapy or 
alternative vitamin or drug, or whatever it might be, comes on 
the market, that there might be some impediments to them 
getting that approved or even getting a grant to have it tested 
thoroughly because of influence being exerted by people who 
have a vested interest.
    Dr. Kamerow. I think that this is an important point that 
you have made a couple of times during the hearing, and my 
response would be that I think it is through the government 
research where this kind of nonprofitable, if you will, 
research gets a chance, because the R&D that gets paid for by 
the drug companies won't pay for this kind of work. So really 
it is very important for us in the public sector to fund this 
research in the most impartial way possible.
    Mr. Burton. Toward that end, if we can be of any help at 
all, and if you think that there is any way, any of your 
agencies, that we could be of help, I wish you would let me 
know.
    Dr. Kamerow, I look forward to talking with you further 
about HHS and Dr. Ornish's program and some legislation that we 
might be able to put together, together, that might get that 
thing into the overall Medicare program.
    Dr. Kamerow. Yes, sir.
    Mr. Burton. Well, thank you very much for being here. I 
really appreciate it.
    Thank you very much.
    We stand adjourned.
    [Whereupon, at 3:16 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED]56145.072

[GRAPHIC] [TIFF OMITTED]56145.073

[GRAPHIC] [TIFF OMITTED]56145.074

[GRAPHIC] [TIFF OMITTED]56145.075

[GRAPHIC] [TIFF OMITTED]56145.076

[GRAPHIC] [TIFF OMITTED]56145.077

[GRAPHIC] [TIFF OMITTED]56145.078

[GRAPHIC] [TIFF OMITTED]56145.079

[GRAPHIC] [TIFF OMITTED]56145.080

[GRAPHIC] [TIFF OMITTED]56145.081

[GRAPHIC] [TIFF OMITTED]56145.082

[GRAPHIC] [TIFF OMITTED]56145.083

[GRAPHIC] [TIFF OMITTED]56145.084

[GRAPHIC] [TIFF OMITTED]56145.085

[GRAPHIC] [TIFF OMITTED]56145.086

[GRAPHIC] [TIFF OMITTED]56145.087

[GRAPHIC] [TIFF OMITTED]56145.088

[GRAPHIC] [TIFF OMITTED]56145.089

[GRAPHIC] [TIFF OMITTED]56145.090

[GRAPHIC] [TIFF OMITTED]56145.091

[GRAPHIC] [TIFF OMITTED]56145.092

[GRAPHIC] [TIFF OMITTED]56145.093

[GRAPHIC] [TIFF OMITTED]56145.094

[GRAPHIC] [TIFF OMITTED]56145.095

[GRAPHIC] [TIFF OMITTED]56145.096

[GRAPHIC] [TIFF OMITTED]56145.097

[GRAPHIC] [TIFF OMITTED]56145.098


</pre></body></html>
